<html>
<title> - FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 25, 2003

                               __________

                           Serial No. 108-101

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

91-692              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001
















                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            J. Marc Wheat, Staff Director and Chief Counsel
               Elizabeth Meyer, Professional Staff Member
                         Nicole Garrett, Clerk

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 25, 2003..................................     1
Statement of:
    Beasley, Reverend Jesse, Team III, Inc., Fort Wayne, IN; 
      Richard Hart, Salvation Army, Chicago, IL; and Beth Truett, 
      executive director, Partners in Education, Fourth 
      Presbyterian Church, Chicago, IL...........................    12
    Moore, Emmett, 11th District Police Steering Committee in 
      Chicago; Richard Townsell, executive director of the 
      Lawndale Christian Development Corp. of Chicago; and 
      Steaven McCullough, chief operating officer, Bethel New 
      Life, Inc., Chicago, IL....................................   104
    Sauder, Tim, executive director of Gateway Woods Children's 
      Home in Leo, IN; Mark Terrell, chief executive officer of 
      Lifeline Youth and Family Service in Fort Wayne; and John 
      Green, executive director of Emmaus Ministries of Chicago..    56
Letters, statements, etc., submitted for the record by:
    Beasley, Reverend Jesse, Team III, Inc., Fort Wayne, IN, 
      prepared statement of......................................    15
    Green, John, executive director of Emmaus Ministries of 
      Chicago, prepared statement of.............................    73
    Hart, Richard, Salvation Army, Chicago, IL, prepared 
      statement of...............................................    39
    Sauder, Tim, executive director of Gateway Woods Children's 
      Home in Leo, IN, prepared statement of.....................    59
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Terrell, Mark, chief executive officer of Lifeline Youth and 
      Family Service in Fort Wayne, prepared statement of........    64
    Truett, Beth, executive director, Partners in Education, 
      Fourth Presbyterian Church, Chicago, IL, prepared statement 
      of.........................................................    44
















    FAITH-BASED PERSPECTIVES ON THE PROVISION OF COMMUNITY SERVICES

                              ----------                              


                        MONDAY, AUGUST 25, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       Chicago, IL.
    The subcommittee met, pursuant to notice, at 9:10 a.m., at 
3333 West Arthington Street, Chicago, IL, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder and Davis.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; and Elizabeth Meyer, professional staff member and 
counsel.
    Mr. Souder. The subcommittee will come to order. We don't 
have a projection microphone at the table here. They will have 
one for the witnesses so we will do our best to project as 
loudly as we can. Unfortunately, without a mic my voice won't 
sound as deep as Congressman Davis' but I will do the best I 
can. He is known as the voice of the Congress. We all each 
morning wake up hoping that an extra day or two in our lives 
will deepen our voice, too, and we can get out of the puberty 
stage.
    Good morning and thank you all for coming to this hearing. 
I am an ardent believer and supporter of many different things, 
White Sox baseball for one, and yesterday I was fortunate 
enough to cheer on my favorite baseball team since 1959 and 
Nellie Fox, Chicago White Sox unfortunately without much 
success. Apparently I do better cheering them on radio and TV.
    In fact, the first point of the day was initially a high 
point. They actually arranged to put my name up on the score 
board and then the Texas Rangers hit a three-run home run right 
after my name went up. I think that sent a message to the 
dugout, ``I am not going to get upstaged by Souder.''
    More important to the purpose of our hearing this morning, 
I am an ardent believer in the work of the countless faith-
based organizations that are helping scores of people in 
neighborhoods across our entire Nation. Today I am happy to be 
here in Chicago to convene this third in a series of hearings 
to discuss what characteristics make faith-based providers 
especially effective at serving the needs of their communities.
    This subcommittee has oversight over the faith-based 
programs. We are really the only committee in Congress with 
oversight. The tax and some of those bills go through other 
committees. We are the only committee that deals with this 
issue. We decided over 2 years we are systematically going 
through neighborhoods and cities and different regions of the 
country to highlight different types of programs in each area.
    They are not necessarily representative of all the programs 
in that area but by the time we are done we will have a range 
of what is going on in the country and then getting additional 
written testimony and other things to add to it as we do a 
major report on what is actually happening in the communities 
across America.
    We have held hearings in San Antonio, TX, where we had 
people from Dallas and Houston and New Mexico and others a 
little more heavily focused on Hispanic things in that area. We 
held a hearing in Nashville, TN, both with urban and rural in 
the central south. This is our third.
    Most of the people today are from Chicago. We have a number 
from my hometown area in Indiana, some which are urban and some 
which are more small town and rural. We will be holding 
hearings in LA, Orlando, Boston and Philadelphia, and maybe one 
or two more out in the western United States.
    What we will hear from our witnesses today faith-based 
organizations are raising the bar for social service providers 
through their tireless efforts and unsurpassed dedication of 
their volunteers. Many people toil away day in and day out in 
our communities trying to help those who are less fortunate.
    For these workers service is not simply a 9 to 5 job but a 
calling. They know there is a need in their community and they 
are compelled to help. By doing so they have been making a 
difference that cannot be denied. I have had the opportunity to 
visit many faith-based organizations and time and time again I 
have heard the testimony of men and women who have seen their 
lives transformed thanks to the love and support they receive 
from volunteers and leaders in the faith community.
    My home State of Indiana has a long tradition of active 
faith-based organizations. Recent examples of State and local 
partnerships with faith-based organizations include the Front 
Porch Alliance create by former Indianapolis Mayor Steven 
Goldsmith and Faithworks Indiana, an initiative designed to 
assist faith-based and community-based organizations of all 
types in developing services and access funding to help 
families in need throughout the State.
    Two years ago Faithworks produced a study, modeled after 
the National Congregations Study, that found that 79 percent of 
Hoosier congregations provide human services. this compares to 
57 percent of national congregations that provide human 
services.
    When we talk about faith-based organizations we are 
referring to more than just congregations, but it is clear that 
in Indiana faith communities have been active in mobilizing 
resources to help people in need.
    At a minimum, government must not only allow but should 
demand that the best resources this Nation possesses be 
targeted to help those of us who face the greatest daily 
struggles. We must embrace new approaches and foster new 
collaborations to improve upon existing social programs. We 
know that as vast as its resources are, the Federal Government 
simply cannot adequately address all of society's needs.
    Services provided by faith-based organizations are by no 
means the only way to reach all people in need. Rather, they 
offer a unique dimension to that service, a group of people 
motivated in many cases by their faith, who are ready, willing, 
and able to help their neighbors around the clock.
    I believe that we cannot begin to address the many and 
diverse social demands of our Nation without the help of 
grassroots faith and community initiatives in every city across 
the country. A recognition that faith-based organizations are 
competently filling a gap in community services has led to 
legislation and regulations that encourage these organizations 
to become more involved in their communities, through both 
action by Congress and the leadership of President Bush.
    Charitable choice provisions have allowed faith-based 
organizations to compete for government grants on the same 
basis as secular providers so that they can reach more people 
in need. As we expand that involvement, we must fully consider 
the specific characteristics and methods that make faith-based 
groups successful at transforming lives.
    Today we will hear from organizations that provide care to 
children, families, prostitutes, people in need of shelter and 
food, and the community as a whole. We need to understand how 
the unique element of faith impacts the structure and success 
of these programs. It is also important that we understand how 
your programs transform lives.
    Our witnesses today represent just a fraction of the 
countless faith-based organizations that are meeting the needs 
of their communities. I expect that our witnesses today will 
provide valuable insights to their work, and identify areas and 
methods by which the government can best assist community 
organizations of all types to provide the best possible care 
for people in need. I very much look forward to the testimony.
    Now I would like to yield to my distinguished colleague, 
Congressman Danny Davis from Chicago, one of the most active 
members of our subcommittee.
    [The prepared statement of Hon. Mark E. Souder follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Davis. Thank you very much, Mr. Chairman. Let me join 
with Chairman Souder in welcoming all of you to the third 
series of faith-based oversight hearings by the Committee on 
Government Reform's Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources.
    Let me just tell you that one of the pleasures that I have 
had since becoming a Member of Congress and being assigned to 
the Committee on Government Reform has been to snare an 
assignment that put me on the subcommittee chaired by 
Congressman Mark Souder from Indiana.
    While we are of different political parties and 
persuasions, I am a Democrat, Mark is a Republican, but we have 
been able to form an alliance to establish a friendship and 
establish a common bond of understanding relative to the need 
to pursue some of the most perverse social problems that exist 
in our country.
    Mark, I want you to know that I value your friendship and 
it is indeed a pleasure to have the opportunity to work with 
you. Thank you very much.
    These hearings are designed to look at the role of faith-
based organizations in providing much needed services. 
Specifically, the witnesses who have been invited to testify 
today have been asked to discuss effective means of providing 
social services in their communities. As a Member of Congress 
and a member of this subcommittee, I have long known the value 
of services provided our neighborhoods by community nonprofit 
and religious based organizations.
    As a matter of fact, the community where we are currently 
located has been a hot bed of social activism and involvement 
for the last 40 years. In many instances churches and other 
groups have been in the forefront of addressing the varied 
needs of many of our communities.
    Whether that be offered in food and drink via soup 
kitchens, handing out sandwiches and blankets to the homeless, 
making shelter available or providing drug counseling 
treatment, you the soldiers of comfort are helping to provide 
and improve the conditions and character of our country.
    I not only support the services provided by these social 
activists and faith-based organizations, I also agree with the 
President that these organizations should, in fact, be in place 
and have an opportunity to serve. As a matter of fact, my last 
conversation with the President a few weeks ago when we rode 
together from Washington to Chicago and back on Air Force One 
had to do with the provision of services by faith-based 
organizations. We were both very engaging in our descriptions 
of what we thought those should be.
    One is we both agreed that organizations should not in any 
way discriminate against people seeking such services or make 
participation in religious activities a condition for receiving 
these services.
    I, too, believe that faith-based organizations should be 
held accountable for the Federal moneys they receive and that 
Federal dollars should not be used to support inherently 
religious activities, although I don't think you can get much 
more religious than I am relative to the fervor with which I 
involve myself.
    I come from a religious-based environment. As a matter of 
fact, the church was the center of activity in the small town 
that I grew up in, Parkdale, AR. Much of whatever it is that I 
am today comes as a result of the Pinnas Chapel CME Church. It 
was a colored Methodist at the time. They have since changed 
and it is now the Christian Methodist Episcopal Church. 
Everything changes, even religion.
    I do not, however, believe that faith-based organizations 
which receive Federal funds should be allowed to discriminate 
in the hiring of individuals. A little sticking point that has 
been much of the discussion and will continue to be much of the 
discussion about faith-based organizations, the role that they 
play in our society, and the position in which they are placed.
    Our hearing today is particularly timely given the enormous 
interest in the effectiveness of services provided by faith-
based organizations, especially in comparison to services 
provided by government entities.
    Two years ago our subcommittee ranking minority member, 
Congressman Elijah Cummings, and Senator Joseph Liebermann 
requested that the investigative arm of Congress, the General 
Accounting Office, look into the services provided by faith 
organizations.
    That report issued in September of last year specifically 
examined how faith-based organizations were being held 
accountable for performance and what information is available 
regarding their performance.
    The report concluded that while most State and local 
officials believe that their faith-based organizations 
performed as well as or better than other organizations 
overall, they did not provide data regarding faith-based 
organizations performance.
    As I end, let me just suggest this. One area in particular 
where I have personally seen the work of faith-based 
organizations be so effective with not very much in the way of 
resources is in the area of drug counseling and rehabilitation.
    I don't know what it is that other folks have seen but I 
have seen people addicted to drugs get into sessions and start 
singing ``What a Friend We have in Jesus,'' and ``Blessed 
Assurance, Jesus is mine. Oh, what a foretaste of Glory divine. 
Watching and waiting, looking above. Pass me not oh gentle 
Savior.''
    I have seen individuals come out of those experiences with 
a renewed determination to confront their problems and deal 
with their needs. I am a psychologist by training. I am a 
scientist. As a matter of fact, I own a Ph.D. degree. I have 
four honorary doctoral degrees. I have never learned anything 
in any scientific setting that replaces that experience. I am 
unequivocally in support of faith-based activities.
    I part with some of my friends who consider themselves, and 
all of us do, civil libertarians who have certain kind of 
notions about this than I do. We agree on the nondiscrimination 
but I think the services can, in fact, be extremely effective 
and they can be cost effective more so than anything else that 
I have seen.
    Mr. Chairman, I thank you for bringing this hearing to 
Chicago. I look forward to the testimony of the witness. Thank 
you very much.
    Mr. Souder. Thank you. I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions to the hearing record, that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection it is so ordered.
    What I just read functionally means is that this is not a 
town meeting, it is a congressional hearing. The witnesses that 
are testifying have prepared written statements but anybody 
else who has written statements if they give them to 
Congressman Davis or myself within the next 5 days, they will 
be submitted into the record.
    The record entails this. We have a court stenographer here 
today. I don't know if it takes us a year or year and a half 
until these things get printed in a booklet form but since 
these are the only hearings being held by Congress on faith-
based, they will be the more or less permanent record of the 
kind of the history of faith-based.
    There have been some hearings in Congress and debates on 
provisions in law but there aren't hearings looking at what 
faith-based organizations are actually doing. We are having the 
debate over discrimination clauses in almost every bill that is 
coming up right now on the House floor and what makes groups 
effective but nobody is going to hearings trying to figure out 
from the groups themselves what makes them effective.
    We are having the tail wagging the dog right now in that we 
are trying to get out and hear from the diversity of different 
groups. We will also be doing a separate committee report at 
the end of next year like we did on borders in the United 
States that will pick up the information from the GAO reports, 
the different CRS reports, private sector reports.
    I have worked closely over the years with Rev. John 
Perkins' organization on community Christian economic 
development efforts around the United States and from different 
organizations like that to incorporate addition to the hearing. 
What I just read says that if you want to get something to us, 
you need to get it to us in the next 5 days through Congressman 
Davis' office.
    The next thing is I will also ask unanimous consent that 
all exhibits, documents, and other materials referred to by the 
Members and the witnesses may be included in the hearing record 
and that all Members be permitted to revise and extend their 
remarks. Without objection it is so ordered.
    For example, what that means, Rev. Beasley, is the 
different charts you have that you refer to will all appear in 
the record and if any of you have additional things you want to 
submit in addition to your testimony, we will put them in the 
hearing book record as well.
    Now, our first panel is here. Let me describe the procedure 
we go through. I come from a little hometown that is surrounded 
by Amish and my great-great-grandfather was one of the first 
Amish settlers in Indiana back in this area in 1846 around my 
hometown. There we have an extended yellow light so the buggies 
can slip through. We found that people tend to extend during 
yellow so we just have a green and a stop.
    You have 5 minutes to do your testimony. When the red comes 
up we will be a little more generous but try to wind up so we 
can get everybody in today. The red doesn't work? When the 
green goes off, that means wind down. I know one time Rev. 
Perkins, I don't know how many of you know, was speaking at a 
church in Fort Wayne and he said right at the beginning, he 
said--I was one of, I think, there were two other guys there.
    He said, ``I see some White folks in the audience. I just 
want you to know we are going to be done at 2. I know you White 
folks tend to look at your clock a lot and start to do things, 
whereas Black folks are a little bit more did it feel good?'' 
He said, ``We'll be done at 2 so just sit back and see if it 
feels good and stop watching your watch.'' That was fine except 
it was 9:30.
    In today's testimony we don't have to stay rigid to the 5-
minutes because we want to get your points in but to get 
everybody done so we can ask questions and followup. We will 
draw that out we may have additional written questions.
    Now, this is also a Government Reform Oversight. By 
tradition this committee swears in all its witnesses. We are 
part of the committee that did the Waco hearings, the 
Travelgate hearings, the White Water hearings and all that.
    If you give your testimony, you are giving an oath and you 
can be prosecuted for perjury, as witnesses have been in this 
committee. It is a little bit different than other committees. 
If you will each stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    It is a real privilege to have each of you here today. 
First leading off is Rev. Jesse Beasley from Fort Wayne, IN, 
who I have been working with on and off for multiple years and 
who I am just really pleased at what they have done in Fort 
Wayne with this TEAM III concept and we are going to have you 
lead off this morning.

  STATEMENTS OF REVEREND JESSE BEASLEY, TEAM III, INC., FORT 
WAYNE, IN; RICHARD HART, SALVATION ARMY, CHICAGO, IL; AND BETH 
   TRUETT, EXECUTIVE DIRECTOR, PARTNERS IN EDUCATION, FOURTH 
                PRESBYTERIAN CHURCH, CHICAGO, IL

    Rev. Beasley. I want to thank Congressman Souder and 
Congressman Davis and the rest of the team that is here today 
for allowing us to come and testify about what TEAM III has 
done.
    Mr. Souder. Can you hear in the back?
    Rev. Beasley. I am sorry. I will talk a little louder. I am 
going to act like Congressman Davis this morning.
    I want to thank Congressman Souder and Congressman Davis 
for having us here today to testify concerning faith-based. We 
have been working the arena for about 3 years. TEAM III is an 
acronym, Touching and Equipping All Mankind. We are a 
collaborative group of proactive faith-based organizations that 
exist to enhance and enrich the quality of life for the low 
income, working poor, and disadvantaged people. We are 
primarily focused on the southeast area of Fort Wayne.
    We are a network center. We have a group of 12 churches who 
have come together that are providing programming development 
and these the churches. We are seeking some financial 
assistance and we are recruiting professional personnel to make 
sure that the programs are effective.
    That is one of the things that we see the need of change 
inside of the faith-based arena specifically speaking for the 
church. As we begin to provide services for the community, we 
realize that we needed to have professional people working in 
the programs so that they were more effective. This is one area 
that our faith-based arena was lacking in.
    We addressed the issue by creating a nonprofit corporation 
that will begin to focus on and train some of those individuals 
as well as identify them. We have worked with some of the 
government agencies, Family Social Services Administration, 
Fathers and Families, Department of Education, and we work with 
them on FFSA for structure because they provided a great 
structure for us to follow.
    We believe also that faith-based organizations need to be 
accountable for any dollars that come to them whether it be 
State or Federal or local grant money. We believe that faith-
based has a powerful impact on the community because it 
provides for the need while it is assessing the place where the 
individual in the group needs to go.
    We also understand that it is not enough for one ministry 
to have result producing programs, childcare centers, or 
spiritual training whether Bible studies or seminars, but it is 
a need every ministry should have those things. Every faith-
based organization, whether it is a church or not, should have 
the ability to reach their targeted population.
    We understand that if we continue to work individually, it 
will leave out a large number of grassroots organizations who 
are making a difference because of poor structure, lack of 
accountability, administrative skills, professional, personnel, 
and reporting processes. They were unable to attack any of the 
financial assistance to have a greater impact on the community.
    We started out in a summer feeding program with seven 
churches and the pastors started to work together as we 
collected the food and all the other things that went along 
with doing that like setting up a staff. We put four staff 
people in each of the churches and as we did that we saw the 
affect it had on the community while we were providing for the 
need.
    After we seen it we made a decision that it was no longer 
possible for us to do that individually and be able to reach 
the community. We understood that our methods needed to change 
as we identified some of the methods as we met as a board of 
directors. Some of those methods that needed to change was our 
leadership development, where we taught our leadership 
development, what information we gave them as we prepared them 
to meet the needs of the people or the targeted population.
    We had to assess the needs of the helper and that is kind 
of where we are right now. Our theme this year is helping the 
helper help. One of the things that faith-based has not 
addressed which would be a good thing to address is helping the 
helper help. Making sure that the people who are helping, who 
are directing the programs, who are running the programs are 
getting the adequate help that they need while they help the 
helper. That is one of the hugest things that we have seen.
    We also needed that vehicle to provide the structure, the 
accountability, and opportunity for government entities or 
other faith-based organizations. As TEAM III advanced we 
realized that was the vehicle that provides grounds for 
relationship with the Government and other faith-based 
organizations.
    I see my light came on. We also identified we needed to 
enhance our ability to provide informational resources and 
adequate direction to social service programming and 
assistance. We also understand that we can no longer address 
just the spiritual need but must be more practical in our 
approach and services by providing work force development, 
social services, crime prevention, and partnering with 
community organizations that were not necessarily faith-based 
organizations. And to provide those things in a faith-based 
setting without violating choice and certainly not apologizing 
for our faith.
    Last but not least, to duplicate that attitude and that 
atmosphere in each of the faith-based organizations that was 
connected and compliant, the same structure, accountability, 
and professional personnel and to monitor them with the vehicle 
organization.
    I have included in our presentation of TEAM III which 
describes us a little more adequately than I have done today. 
We have narrowed this concept for 3 years with much success. 
Three years is not a lot of time but as we examine ourselves in 
the light of what has been done in the faith-based arena, we 
believe that we are on the cutting edge.
    Mr. Souder. Thank you very much. Just for the record 
because many of you in the audience may not know that much 
about Fort Wayne, IN, but in our southwest quadrant we have not 
had the economic growth and we have had lots of other 
challenges and two of the three lowest income housing tracks in 
the State of Indiana are, in fact, in that area of Fort Wayne, 
not in Gary where many more people are familiar with.
    It is been a real challenge for the churches to get 
organized, find the resources, and try to address that. Not 
everybody can be like the Beasley family who are personally 
terrorizing soccer from all over the United States. We have had 
two tremendous products out of your extended Beasley family. 
Many people know from the Chicago fire and other places the 
graduates of Fort Wayne, the extended family, but Fort Wayne 
has other things in addition to Beasleys.
    Now I would like to have Mr. Richard Hart from the 
Salvation Army, one of the Nation's leading organizations to 
talk about the particular program that you have been working 
with, the Salvation Army.
    [The prepared statement of Mr. Beasley follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hart. Thank you. Good morning, Honorable Davis and 
Souder. I am the program manager of the Salvation Army 
Community Corrections facility here in Chicago on the west 
side. We have been in business since 1975 in the corrections 
area. At the beginning of 1975 we had a contract with the 
Illinois Department of Corrections. In the late 1970's, early 
1980's we began to have a Federal contract with Federal inmates 
from Federal prisons across the country.
    In 1987 with the sentencing guidelines we went totally 
Federal as far as our contract. As of today our contract is all 
Federal from the Federal prisons across the country and with 
the Federal probation department here in the northern district 
of Illinois.
    Our residents are referred from those two primary sources 
for transitional houses, for the reentry issues that is so 
prominent these days as far as those being released from 
institutions. We happen to have the largest Federal work 
release in the country contracted with the Bureau of Prisons 
and we can hold 175 individuals, men and women.
    Today's count is 158. We have been down some due to a 
decision from the Attorney General's Office regarding release 
of individuals from Federal prisons that they serve 90 percent 
of their time and put 10 percent in work release facilities. 
Those that were called direct court commitments can no longer 
come to a community correction facility. They have to go to a 
prison so that certainly has affected our population.
    We feel that we are effective because of the structure that 
we have available in our program. We have case managers that 
will address all the needs of an individual coming through the 
doors doing a complete assessment of their needs. Primary focus 
for our resident is finding employment, a place to live, 
reestablish any family ties or positive peer interaction.
    Before they move out of our doors, they will have been 
placed in one of those areas, primarily the first two, either 
housing or employment or both. Our facility also provides a 
substance abuse counselor for our residents and also mental 
health after care for those who may need that service.
    As far as those being released from prison, there is a need 
in several areas, in particular substance abuse area. We have a 
clinical department that will address that in individual and 
group sessions and certainly again with the mental health after 
care.
    We have to structure that individual's need and for the 
long times of being incarcerated, some from 5, 10, 20 years 
that we see that come straight to our doors, we have to take 
the time that they have manageable steps and not try to do 
everything right at once, once they are released to our 
facility.
    Some are trying to find employment, trying to assimilate 
into a community, trying to establish a relationship with 
family members all at once. We have to give them time to do 
things in a process step to make them more effective so they 
don't become part of that revolving door recidivism.
    In addition to having the structured program that we have 
for our residents, residents who do come to our facility pay 
what is called subsistence and that is 25 percent of their 
gross income goes back to the government to offset their stay 
in a facility like ours. Not only is that a benefit to the 
taxpayers because in one particular year we calculated that 
over $400,000 in 1 year from our facility in Chicago on the 
west side was collected and given back to the government.
    The residents are also paying taxes as they find employment 
throughout this metropolitan Chicago area along with paying any 
restitution that may be required through the Federal Probation 
Department. There is an added benefit of those who are released 
to come through a community correction facility.
    In addition to the counseling program we do allow residents 
to enter into any type of schooling that may be needed. We find 
people who do not have their GED, so they can certainly utilize 
the services of Malcolm X College here on the west side of 
Chicago or any other community outlet that provides GED 
training. We also have English as a second language that is 
provided right there on the grounds of the Salvation Army for 
those who need those services.
    We also see a need of life skills for individuals that have 
been incarcerated for so long that have to really get into the 
adjustment of community life. We sometimes have volunteers 
along with our paid staff that provide curriculum of life 
skills.
    As recently as the last month or so we have had outside 
speakers who have given readings of poetry, given individuals 
opportunities to give self expressions. We have found certainly 
an abundance of talent from our residents there. We have had 
Alder Institute that is here in Chicago provide volunteer work 
for parenting classes for our residents.
    In addition, we have environmental safety trade training 
class, asbestos and lead removal on our site. Our residents now 
become their own business persons once they receive their 
license from the State of Illinois to do asbestos and lead 
removal.
    Quickly the other departments that we have in our program. 
Certainly our chaplain is here which is a big part since we are 
a faith-based organization. Our chaplains are paid through the 
Salvation Army and not the Federal Government money that our 
correction program is paid through. They even provide 
counseling and pastoral services in Cook County Jail and State 
of Illinois Prisons. Our clinical department, once again, does 
assessments and mental health aftercare.
    The other programs in our surrounding block area is a 
freedom center and that is where the Harbor Light program. They 
provide counseling for people with addiction and our Brandecker 
Clinic that provides health care for our residents and 
corrections along with the Harbor Light residents and the 
community residents in the 60607 area. The Brandecker is an 
extension of the Cook County Hospital which is now called John 
Stroger Hospital. Thank you.
    [The prepared statement of Mr. Hart follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. Thank you very much for your testimony.
    Our next witness is Beth Truett, executive director of 
partners in education at the Fourth Presbyterian Church of 
Chicago.
    Thank you for being here.
    Ms. Truett. Thank you very much, Honorable Davis, as well 
as Honorable Souder.
    I represent Partners in Education at the Fourth 
Presbyterian Church of Chicago. We are a 501(c)(3) organization 
that was founded in 1991. However, our roots extend back to 
October 1964 when a group of church members began helping 
children from the nearby Cabrini-Green housing projects with 
their homework.
    Today we work with nearly 500 children from 33 Chicago zip 
codes in our Tutoring program. Some of that change is 
occasioned by what is going on in terms of relocation in both 
Cabrini as well as the Horner projects, some of it is voluntary 
relocation. The families just coming back over the years.
    About 50 percent of the tutors--it is one-on-one tutoring--
come from our church of about 5,100 members. We are located at 
Michigan and Chestnut Streets in Chicago. About 30 percent of 
the students still come from Cabrini-Green. We find it a great 
misnomer to think that the neighborhood is changing so much 
that poverty is not there and children are not there. The 
schools are full and there is a lot of work to do.
    We support nine of our tutoring students with scholarships 
to private and parochial high schools. We would like that 
number to be a lot higher. We have a job training program for 
high schools and had the pleasure of having one of our students 
this summer in Congressman Davis' office as an intern. We have 
100 children participating in the City Lights Summer Day 
program that was founded in 1966.
    Finally, in partnership with the Chicago Public Schools, 
Partners in Education coordinates a literacy initiative in four 
Cabrini schools as well as an after-school arts education 
project which culminates in a Fine Arts Festival each May. In 
October we are going to open a parent learning center in Byrd 
Academy, which is one of the Magnet Cluster Schools in Cabrini 
thanks in part to a State of Illinois DCEO grant to eliminate 
the digital divide.
    It is going to replace the Center for Whole Life which has 
been located in a CHA project for 12 years. But the lack of 
neutrality of being in a CHA building has increasingly caused 
us not to be able to meet our mission of raising the level of 
parent education from that location. I sometimes say that our 
greatest success would be to go out of business. That every 
parent would be able to tutor their own child and that we would 
not have to do this externally. In the meantime, we are working 
to build self esteem through education.
    Partners in Education is funded by individual 
contributions, by grants from foundations and corporations, and 
earned income projects such as our student-designed holiday 
cards where we encourage kids to express their creativity, 
write verses, and also win prizes for their work. The mission 
budget of our church funds 22 percent of Partners in Education 
and we need to raise the rest.
    The Tutoring and Scholarship programs employ long-term one-
on-one relationships. We serve students in grades one through 
12. In addition to academic Tutoring, there is time for honing 
creative and computer skills and reading in our Tutoring 
Library. One single parent with four children in Tutoring 
program recently reported that her kids' grades have gone from 
D's to B's and C's and that one has achieved B Honors for three 
quarters and has actually been awarded a scholarship from the 
school itself.
    In order to bring students to Tutoring, bus transportation 
is provided if kids are living in Cabrini or Horner 
neighborhoods. They have the option to arrive 1 hour before 
tutoring to participate in Kids Cafe which offers both life 
skills lessons as well as a hot meal. This was founded in 
conjunction with America's Second Harvest and our program was 
the second in what is now 1,200 programs. We just celebrated 
our 10th anniversary and are deeply committed to alleviating 
childhood hunger.
    The City Lights Summer Day program provides opportunity for 
elementary school children that include strengthening academic 
skills, arts education, community service projects, in 
partnership with the Ravinia Music Festival and Rock for Kids, 
a local music-oriented charitable organization. Students 
showcase their talents in a performance for parents and 
friends. Like Tutoring, transportation is provided for most 
students and Kids Cafe serves breakfast and lunch bringing the 
total meals served to kids to 10,000 annually.
    The Near North Magnet Cluster Program is entering its 4th 
year. We are in Cabrini and we are 1 of the 144 public schools 
that have been clustered to provide local school choice for 
parents living in economically disadvantaged neighborhoods.
    It is unique not only in its art focus but also because it 
brings principals together for strategic planning, leverages 
resource, and builds community. The 2002 Festival of the Heart 
won a Peacekeeping Award from the Presbyterian Church USA for 
its effectiveness in bringing kids together from rival gang 
territories on either side of Division Street with positive 
results.
    Now, as I wind up here, I want to tell you that the church 
is currently in the process of folding in three other local 
missions into Partners in Education, our ministry to homeless 
neighbors, older adults, and health ministry. The Center for 
Older Adults was founded in 1965. It is a place for seniors to 
search for meaningful engagement through adult education, 
exercise, health, and wellness.
    The Elam Davies Social Service Center welcomes and supports 
about 3,000 homeless persons per year. Sometimes they are not 
homeless but living in poverty and our efforts are to get them 
into housing and also to provide food, clothing, and the 
appropriate referrals.
    We are working to inform choices that will build bridges to 
the future for all the people that we serve. We seek to 
practice justice, not charity, by providing children and adults 
with the opportunity to discover hope and to create a 
satisfying life.
    Partners in Education at the Fourth Presbyterian Church of 
Chicago believes that we are called to reach out to our 
neighbors. We affirm the worth of all people and we strive to 
provide a safe and belonging place where the body, mind and 
spirit are strengthened and nurtured. Thank you.
    [The prepared statement of Ms. Truett follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. Let me first ask Rev. Beasley, one of the 
things that we have worked with and discussed was the problem 
in many cases that there is a proliferation of almost every 
church having some kind of a program. One of the things that we 
talked about which you have done, which is why I wanted to make 
sure you were at this hearing and part of this faith-based, is 
you talked about it being a collaborative effort.
    Could you talk a little bit about you have some large 
churches, some small churches. Could you just put into the 
record, which will be in the written statement, but some of the 
different programs you were doing and a little bit about the 
different churches so we can understand what, in fact, TEAM III 
and how that is different than many of the social programs we 
see where a particular church or a denomination may say, ``This 
is my program. I am going to go apply to the Federal Government 
to try to get that.''
    Rev. Beasley. I sure can, Congressman Souder. One of the 
programs that we have established and worked diligently with 
the last couple of years is the Dimetrian Program. It is a 
value-based initiative. We partner with value-based initiatives 
to get some of the people who are returning from prison 
connected to a mentor and help get their lives established and 
goal setting.
    They even do some of the parenting classes. We also have 
another program called Returning Fathers which is a very 
comprehensive landscape training program that teaches returning 
fathers how to operate a bobcat, backhoe, tractor, all the 
equipment that is necessary to do landscaping. In the process 
of doing that we teach parenting, money management, goal 
setting, and how to handle their money and leisure time. We use 
mostly Christian curriculum to do that.
    Not only do we do that, we have done some leadership 
training where we train some of the leaders in the church that 
will be focused on doing some of the training. We are thinking 
of outside sources. We are doing some asset building through 
the Department of Education where they are offering the asset 
building by depositing money in the account of the government. 
I am sure you are familiar with the Indiana government account.
    We also have been doing some youth training where we are 
partnering some of the youth with some associations and doing 
some community mapping. We are involved with some of the 
community organizations like Christmas Connection that goes 
into the homes and provides gifts very much like Angel Tree 
did, and still does, under Chuck Colson's ministry. We are 
heavily involved in that. As a matter of fact, we cover not 
only the southeast part of Fort Wayne but a good portion of the 
outlying counties of Fort Wayne.
    We are doing some technical training for staff and boards. 
We are making sure that the structure of each of the individual 
churches after we have assessed them is one of an organization 
that is accountable and that is able to receive dollars and 
they understand what the relationship is between government and 
their programs. We are doing a lot of educating other pastors 
and some of the staff that we have earmarked for some of the 
things that we have coming up.
    Those are just a couple things. I don't want to go on.
    Mr. Souder. What is the largest of the churches and the 
smallest of the churches roughly in membership?
    Rev. Beasley. Our largest church probably has about 700 
people and our smallest church probably has about 6.
    Mr. Souder. One of the things that we have had a concern as 
we have shaped the bills and as administration worked with the 
different agencies as far as grants is as to whether the church 
is going to get directly entangled. Part of your philosophy was 
to set up this organization as a--is it 501(c)(3)?
    Rev. Beasley. Yes.
    Mr. Souder. So that it could be available as it develops to 
be the recipient so if there are problems or claims or lawsuits 
and bookkeeping, it moves to a 501(c)(3) rather than to the 
churches directly.
    Rev. Beasley. Exactly. That is the common ground for the 
churches to work together and it is also the common ground for 
us to have a relationship with government entities or local 
grantmakers because we have become the reported agency for 
those local and Federal grants.
    Mr. Souder. Just so people understand, this is an important 
part of our compromised faith-based bill that is moving 
through, to try to stress that these secondary groups so we 
don't get quite as entangled directly with the churches and 
this is the forerunner of what we are going to see increasingly 
if this kind of relationship is going to work.
    I wanted to ask now Mr. Hart at the Salvation Army, you 
made a statement that I just wanted to make sure I clarify a 
little bit for the record. You said that many of these people 
that you work with have been incarcerated for long periods of 
time and that they have substance abuse problems. I presume 
that means the substance abuse problems aren't being 
effectively addressed while they are in prison. Are you also 
saying that they are continuing to abuse substances while they 
are in prison and that they haven't been exactly away from that 
abuse during the period of time they have been incarcerated, or 
that they are going to return to their previous pattern? Could 
you elaborate on that a little bit?
    Mr. Hart. Sure. Those coming from an institution have 
entered into a comprehensive drug program in some of the 
Federal prisons. Part of the Federal Government is that they 
continue at the halfway house and continue treatment. Once they 
are released from us a majority have Federal probation. They 
also continue with their substance abuse counseling. That is 
for one segment.
    I also mentioned that we receive clients from the Federal 
courts and that is really a big part of our substance abuse 
treatment. Those coming from home who have been adjudicated to 
come to Salvation Army in lieu of prison. These are individuals 
who have failed other drug programs. This is generally their 
last opportunity before being considered for incarceration. A 
big target is the Federal court individuals who have to receive 
treatment.
    Mr. Souder. Ms. Truett, I also had--am I saying your name 
correctly?
    Ms. Truett. Absolutely. Yes.
    Mr. Souder. I had a technical question about your program. 
You said 30 percent of your students still come from Cabrini-
Green and you made several references to the Horner public 
housing area. About how many students would you say are 
involved in that?
    Ms. Truett. Thirty percent as well.
    Mr. Souder. So it is about the same size. Is that area 
changing at all like Cabrini-Green?
    Ms. Truett. It is changing. I mean, there has been a 
dramatic change in housing as well in that neighborhood. We 
have not been located in that neighborhood for as long as we 
have in Cabrini so I am less familiar with some of the distinct 
changes than with Cabrini.
    Mr. Souder. I visited Cabrini-Green in the early 80's or 
middle 80's when I was with then Congressman Coates and the 
Children Family Committee. Then we held a hearing over there 
again in the mid 90's and met with a lot of the residents there 
and have gone through that change there. Others can come during 
the day. I am curious. You said some are coming back. Did most 
of those people push for their arrest and when they are coming 
back, where have they been? I wonder what the dislocation 
affect is and whether you've seen that with the kids.
    Ms. Truett. When I said coming back, maybe I wasn't careful 
enough to explain it. What I meant is coming back to the 
tutoring program. We are not yet in that phase in the plan for 
transformation in the city of Chicago. Unfortunately housing 
units are built for the residents who want to live and take 
advantage of the plan for transformation. People are still 
being more dislocated than they are relocated into Cabrini.
    But what I was referring to is because of a long history, 
40 years of this tutoring program, is that even when students 
move to the west side and they move to the south side, they 
find ways to get back to the program.
    Mr. Souder. Do you see large churches like yourself as 
gentrification occurs at some of the--it is kind of moving 
inside out and we are seeing a push. Some of the lowest poverty 
push further out into the near suburbs. Do you see large 
churches like yourself partnering with large suburban churches 
or how are you going to work and provide assistance?
    Ms. Truett. Well, in the last year the Presbyterian of 
Chicago has taken up that very issue and now, in terms of 
funding from our own denomination if we are not partnering with 
other churches who do not have the ability to provide direct 
service, say a suburban church, we are really not qualifying 
for those denominational funds. They are holding workshops for 
us and encouraging us to do that.
    In addition, because we are one step from the actual 
neighborhood, we belong to the Near North Ministry Alliance 
which is a group of churches, some of whom are located in and 
some of whom are located on the fringes of Cabrini where our 
efforts are also attempting to coordinate, especially around 
high school education, kids who are going to Walter Peyton High 
School--who get in and then they can't succeed because they 
don't really have the tools to make the grade once they get 
there, which is very sad.
    Mr. Souder. We are planning this fall to do as Congressman 
Davis referred to in his testimony one of the major hot points 
and this is hiring practices. We are having a philosophical 
debate on that in Washington over a public policy but it is a 
standard practice that I ask the witnesses so we can get into 
the record.
    In your different programs, for example, Rev. Beasley, you 
have a very strong statement of faith. Salvation Army has 
historically had that and the Presbyterian church. In these 
different programs, and I will just ask each of you. I am not 
asking for commentary on it but let me start with Rev. Beasley 
first. For staffers in your program, do they need to agree with 
your statement of faith before you hire them?
    Rev. Beasley. Well, we have opened our program to anyone 
who is willing to conduct themself according to our statement 
of faith. It doesn't necessarily mean they have to be 
converted. At least while they are with us they will conduct 
themselves according to our statement of faith.
    Mr. Souder. That is a staffer?
    Rev. Beasley. Well, currently the issue of staffer. It was 
a kind of like a blanket cover. We have had some of the 
gentlemen who have been in the program come back to take care 
of a couple of those positions. The issue hasn't come up but we 
are willing to work with anyone who is willing to adhere to our 
statement of faith.
    Mr. Souder. Would you hire a Muslim to be one of your 
staffers?
    Rev. Beasley. I can't tell you that I would.
    Mr. Souder. You have to in serving serve who walks in the 
door.
    Rev. Beasley. I understand that.
    Mr. Souder. As a Christian church would you hire a Muslim 
to be a staffer?
    Rev. Beasley. As a Christian church?
    Mr. Souder. And as TEAM III.
    Rev. Beasley. As TEAM III it is a possibility but as my 
church, no, I could not.
    Mr. Souder. Because that is a potential difference in a 
church organization.
    Mr. Hart, in the Salvation Army for your prison correction 
programs, would you hire someone who didn't share the Christian 
faith or actually practiced another faith as a staffer?
    Mr. Hart. Certainly. As myself, I am not part of the 
Salvationist Church. We have people of all different faith and 
backgrounds that are hired there so we do not discriminate at 
our corrections program.
    Mr. Souder. So you would hire a Muslim?
    Mr. Hart. We would. We currently do have both on board as 
staffers.
    Mr. Souder. Thank you.
    Ms. Truett.
    Ms. Truett. Yes. We are open to people of all beliefs. I 
think the criteria would be we frequently will open a meeting 
with prayer so we wouldn't change that particular practice 
because a person from a different persuasion were present but 
we would not discriminate in our hiring practice.
    Mr. Souder. Now, in a government program that receives a 
direct government funding you could not open that meeting with 
a prayer. Would you change that in order to get direct Federal 
funding?
    Ms. Truett. That is a very good question and that is a 
debate which we are really engaging in. We have a task force 
within our church that I am sitting on to wrestle with those 
very questions.
    Mr. Souder. There needs to be an understanding of many, 
particularly in the minority community have, in fact, in the 
past received Federal funds and opened the meeting with a 
prayer but, as the new guidelines are promulgated, you cannot 
have a prayer during the period of time that is funded with 
Federal dollars. There will be more court decisions with that. 
You can have a prayer meeting before and after but this is 
really touchy because prayer is integrated into so many of the 
programs and that is what we are trying to work through as we 
deal with working with this.
    Rev. Beasley.
    Rev. Beasley. Yes, sir. I have a concern. That concern is 
when two people come to the table to make an agreement and that 
agreement is to provide services, that they should not be asked 
to change who they are to provide those services. I know I am 
on the record and I want to say this on the record. We are 
faith-based people, truly faith-based. If we take out the 
element that makes us who we are, then we become government. If 
I can share with you for just a second. If I could have 1 
minute.
    Our program, Returning Fathers, works with the parole 
office in Fort Wayne, IN. We decided to work with them for 
referrals. They were going to give us an office in their 
building so that we could screen the people. In the meeting one 
of the parole officers said, ``If you are in our building, the 
people are going to look at you just like us and they are going 
to respond to you just like us.''
    Instead we met in the church and the response was totally 
different. Now I have the probation officers calling the church 
to get reports or to find out where their people are because 
they will come to the church because there is help there for 
them. If we take that element out, we might as well do what you 
are doing. We want to remain faith-based. It is possible for 
faith-based organizations to have a relationship with 
government and not give up who they are. FFSA has provided over 
the last 2 years as a service provider for them some valuable 
structure that not only helped the organization where we help 
the people, but it has helped us in our church as we structure 
our church. You have some very valuable tools but if you make 
us change who we are, then we've lost the basis for a 
relationship.
    Mr. Souder. Let me ask you a direct question. In many of 
the cases and the kids you have worked with in our reentry 
program, in our other different things, do you believe that one 
of the main reasons your programs have been effective in your 
communities is because people have actually committed their 
life to Jesus Christ and changed and is that a big part of your 
ministry? Can you really separate the faith part from the other 
part?
    Rev. Beasley. Yes. I think you can. You can separate it to 
the point of providing services. We don't have to pray during 
the time that we are providing services for individuals. We 
don't have to do that. That is not a problem. But it is 
impossible for us to reach a community and not be--I am a 
pastor. I teach them life skills every day and if I never say 
anything to them about Jesus, they start to look at me and say, 
``What he's doing is not real. Why should I believe in what he 
wants me to do?''
    What we are really after is life change. Not the money. Not 
the prestige that goes along with it but to change the life of 
the people who are caught up in the system. It is ministry and 
it can be separated. We can have a relationship and I believe 
TEAM III shows that.
    If you will talk to any of the people in Indianapolis with 
Family Social Services Administration who grew with us during 
the last couple of years, we have worked with them diligently 
to make sure that we are not violating any of their principles. 
I think government should do the same.
    Mr. Souder. Congressman Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. I must say 
that I am intrigued with the answers as well as the questions. 
I think what we are hearing helps us to understand the 
complexity of trying to shape legislation, that you are trying 
to reach a point where there is enough agreement without 
changing the basic structures of what it is that we believe in. 
That is why I always say that there are no simple solutions to 
very complex problems.
    Rev. Beasley, I am intrigued by the ability that you all 
have found to organize 12 churches in what sounds like a very 
cohesive unit, especially since a friend of mine became a 
pastor and he got a call to come to a church where they had a 
lot of difficulty with pastors. They were changing pastors just 
about every 2 or 3 months.
    After he had been there for about 6 months, he was totally 
fascinated by the fact that he had managed to stay that long. 
He asked one of the members, ``Would you do me a favor and just 
tell me what it is about me that this congregation likes so 
well?'' The sister told him, ``Well, Reverend, people at this 
church ain't never really wanted no pastor and you are about 
the closest thing to nothing we ever had.''
    So I proposed this business of leadership and the ability 
to organize a group to become effective without everybody 
wanting to be the leader everybody agreeing to follow whatever 
the group establishes, and nobody pulling out and saying, ``If 
it is not my way, then it is the highway.'' How have you 
managed to do that?
    Rev. Beasley. Well, I just did a status report on that. We 
have been together for 3 years and we have yet to have one 
argument in our board meeting. It is a solvent renewal debt. 
That is the only answer I have for you because I don't have a 
formula. We are just being obedient.
    I told you there are 12 and there are actually 15 churches 
now. We have a couple more. There was a group between 700 and 
the 6. I think it is probably because the church that has six 
is mine and I am the leader. I am not sure how it happened. I 
think I just showed up at the meeting. Pastor White who is here 
with me is the vice president.
    Because we were working together and providing resources 
for one another and the effect that we've seen that it have on 
the people to see us working together is starting to come out 
of every pastor's mouth. We have to keep on doing this. We 
can't stop doing this. We have to keep meeting. That is how 
TEAM III was born.
    Under those grounds we've been operating. As a matter of 
fact, for the last 3 years we've been able to provide four 
staff people for each of those churches for 50 days. This year 
we did it again. Each one of those sites fed over 500 kids a 
day meals, breakfast and lunch as the pastors work together.
    It has to be common ground and that is what I was 
expressing to you when I was telling you about us working with 
government. We had a common goal. This is a neutral place where 
we can satisfy that common need. Let us do it and let us not 
argue. We are going to be different. We are from all 
denominations from the Church of God. We have some Lutheran 
churches involved with us. We are a nondenominational church. 
We have some Full Gospel churches with us.
    Denominational issues are not the issue. The issue is how 
do we get help to our community and to our children and satisfy 
the need and how do we do that effectively instead of the way 
that we've been doing it.
    Mr. Davis. Is it your position now that while Federal 
resources, that is money, are desirable but you really don't 
see yourself changing the way that you operate in hardly any 
way, shape, form, or fashion in order to meet the 
qualifications for that money should they be different than 
what you currently practice.
    Rev. Beasley. No, sir. It is exactly the opposite. TEAM III 
is the organization that standards in the middle that provides 
the opportunity for the change to take place and to do that and 
not too rapidly so that we make mistakes doing it. We don't 
have a problem complying. As a matter of fact, those were the 
strong points and the things that focused that we needed to 
change. We needed to change the method by which we reach the 
community, not the message.
    Mr. Davis. Even now on the 501(c)(3) tax exempt status 
organizations you couldn't do the prayer piece. I am saying you 
can't do what is called religious proselytizing. Or let us say 
a church has a daycare center in the basement. They can't teach 
Presbyterian philosophy as a part of their daycare operation 
even though they can have a daycare program but it is not 
called a church philosophy program.
    When I was a kid growing up, even in school we often 
started our day--we started everything with prayer just about. 
As a matter of fact, we would get ready to go to the cotton 
field to chop cotton and my daddy would want us to start 
praying and we prayed that the sun didn't shine or that it 
might rain.
    What I am saying is that these kind of--I mean, there is a 
strong feeling that many people in our country have about what 
is separation of church and State. That has been a part of the 
doctrine and philosophy of this country almost since its 
beginning. I am saying that is a great deal of what much of the 
debate really centers around. I think that is something we will 
be discussing.
    Mr. Hart, if I could ask you what are the Salvation Army's 
experiences with recidivism? I mean, are you finding that the 
individuals who come through the Salvation Army after they are 
discharged and complete the programs are they able to go on 
about their lives and their business without returning to 
prison at the same rate or better than or whatever than people 
who don't receive these kind of services and this kind of 
opportunity?
    Mr. Hart. I think that the majority who do come through a 
community corrections program do better. There are studies out 
there from Jeremy Travis and Joan Presivia from the Rand Corp. 
has shown that when they receive the treatment they do better.
    With our facility we actually hired a researcher and we 
hope to have some raw data next year as they complete how well 
we are doing. We do have statistics that we give to the 
American Correctional Association outcome studies and we are 
audited by different government entities such as the Bureau of 
Prisons who keep up our failure rate and shows that we have 10 
percent recidivism as far as those who fail our program.
    Those who complete it and go on to supervision, there are 
certainly individuals once they have probation that they will 
have technical violations from probation and may have to go 
back and serve a term in prison and then come back through our 
doors again. We certainly see those individuals. We have a 
close relation with the Federal Probation Department.
    They have case loads of a minimum of 80 now because of 
budgetary reasons so they can't give them the type of services 
that our counsels in our facility who have case loads between 
10 and 15 where they can do in-depth counseling. There are some 
who go through that revolving door. I think it is a small 
percentage. I think they do receive a benefit coming through 
our facilities as far as the areas that we identify.
    Our residents, we get a chance to see them and some of the 
life stresses as they are on home confinement while they are 
still under supervision with us and we can sometimes identify 
issues that will happen at home. Or if they have weekend passes 
and they are going back to family members they haven't lived 
with in years and they bring up those issues with their 
counselors and we work with them to adjust to a community life, 
a home life again.
    There are certainly issues that they experience on 
employment, job retention as far as punctuality and all those 
other things that we know and we take for granted those who are 
employed. We work with those issues with individuals because 
there are some who have problems with authority figures or 
people telling them what to do on the job. Our counselors talk 
with them to work out those things. These are things they have 
to do to survive. That is included in our life skills and our 
ongoing counseling with our residents.
    Mr. Davis. So you are saying that the recidivism rate is 
lower than for people who don't get the opportunity.
    Mr. Hart. I believe so.
    Mr. Davis. Thank you.
    Ms. Truett, let me thank you for your testimony. Also let 
me dispel for some African Americans the idea that Black 
elected officials don't get invited to predominately White 
churches. I always hear on the radio talk shows, especially 
when there is an election, I always hear African American 
suggest that, ``White politicians are coming into the community 
talking politics and social issues and you don't never see no 
Black politicians in White churches.''
    Well, I don't feel like arguing at that point because I am 
trying to get votes but I certainly have been invited to Fourth 
Presbyterian and have discussed issues a number of times with 
people there. For those of you who don't know what Fourth 
Presbyterian is, it is a flag ship type church of the 
Presbyterian denomination right downtown, Michigan Avenue on 
the Gold Coast. Right in the heart of what one would call an 
upscale district.
    My question is, I mean, there are perceptions that certain 
kinds of institutions don't need or wouldn't make use of 
Federal resources to carry on program activity. The 
congregation can just kind of reach in its pocket and pull out 
whatever they are going to do. Federal resources if you were to 
use them would allow you to do what with the programs that you 
mentioned?
    Ms. Truett. Well, first of all, I just want to tell you 
that when the church was built there was only a varnish factory 
and a saloon there. It was on the outpost originally. To answer 
your question, we have put a deposit on some land on Chicago 
Avenue right at the fringe of the south end of Cabrini.
    Our belief is that as part of the plan for transformation, 
that there needs to be a community center that helps people 
live together. That you can't all of a sudden put people 
together in the same neighborhood who have not had exposure to 
one another and expect that to be successful.
    That is a big project and regardless of the fact that we do 
enjoy support from a church that has resources and assets, even 
currently our programs have grown beyond the ability of the 
church's membership or the church's budget to support. 
Certainly in the future as we reach out to have a facility that 
has sports arena, that has space for community meetings, etc., 
we will not be able to support that as a church.
    Mr. Davis. Thank you very much, Mr. Chairman. I have no 
further questions of the witnesses. I want to thank each one of 
you for your testimony and for your response and thank you very 
much.
    Mr. Souder. I want to briefly followup on a couple points 
with Rev. Beasley just to clarify again. If I understand how 
you are functioning, you would say that for a feeding program 
that you wouldn't necessarily have a prayer or religious 
activity with the feeding but you could before or after if you 
had government funds in that feeding program.
    If it was your own dollars, you probably would have a 
prayer and other things mixed in with it. But you understand if 
you get the State dollars or the Federal dollars, there has to 
be some separation but it isn't that you are giving up the 
religious ministry of your programs. It is just what you are 
using the Federal dollars for during that period you would not.
    Rev. Beasley. Exactly. We are currently funding through the 
Department of Education for our feeding program and we do not 
pray at the beginning of the feeding program which is part of 
the agreement.
    Mr. Souder. I don't agree with it but I understand the law 
and the danger inherent in this.
    Now, let me ask Mr. Hart because normally we think of this 
separation and flexibility of church and faith-based groups 
related to hiring practices related to do they need to be 
Christian and would you hire a Muslim, would you hire a 
Buddhist, would you hire a Hindu.
    Let me ask you another question. In your drug treatment 
program if you heard from a number of others that one of the 
people who was one of your prime sources of using drugs, would 
you fire him or would you go through a due process?
    One of the big things that faith-based organizations do is 
because faith is part of their statement, if they hear through 
counseling or others that someone is abusing their wife, 
beating their child, addicted to pornography, using drugs, they 
will fire them. But with a Federal grant unless we have a 
faith-based hiring practice change, you would have to have this 
person prosecuted, convicted in court before you could fire 
them.
    Rev. Beasley. Well, the answer to that is since we have a 
contract with the Bureau of Prisons there are things in our 
statement of work that says that anyone abusing drugs could no 
longer perform their duties there so it is already inherent in 
our----
    Mr. Souder. The question is not whether or not anyone is 
abusing drugs. The question is no one is guilty under 
government guidelines until that has been proven in a court. 
Whereas in an organization often they fire when the allegation 
is made or they feel there is sufficient evidence. The 
difference between a government grant and private money is the 
process of when you determine they have been abusing drugs.
    Rev. Beasley. Once again, I say we don't have a grant, we 
have a contract. It is explicit in that contract that there are 
provisions of the Bureau of Prisons. We have to follow with 
that. We don't go by any Salvation Army rules or anything like 
that. Because we have that contract, we have to follow the 
agreement within that contract with the Bureau of Prisons. They 
tell us exactly whether or not we can ask questions with that 
individual or that individual has to be off work until they may 
bring in their own investigators. It is really already a 
settled issue there as far as the contract provisions.
    Mr. Souder. One of the things as we debate this, and we 
have seen this in our earlier hearings and continue to see it, 
is different organizations are comfortable or not comfortable 
at different levels. Once an organization has made a decision 
that you will hire a Muslim, you are still faith-based but you 
are no longer a Christian solely faith-based organization.
    You are now ecumenical. That is a decision that each 
organization has to make. But, in effect, what we are trying to 
work through at the Federal level is can an organization 
maintain a distinct brand of faith or do all organizations that 
get a Federal grant have to become ecumenical?
    Do all organizations have to sign such a precise statement 
as you have with the State of Illinois or could, in fact, they 
retain some flexibility because they are concerned about the 
witness of their organization. If, for example, this is even 
tougher.
    Drug abuse, at least, has a process but what about somebody 
who is beating their wife and the wife doesn't want to 
prosecute. Most church organizations would fire that person but 
a government organization is not allowed to unless charges are 
substantiated.
    We think of it in terms of homosexuality or other types of 
things but when you look at it as spouse abuse and child abuse, 
addiction to pornography, that in maintaining your integrity as 
a faith-based organization, that is why these debates over 
waivers are so critical. I thank you for your participation in 
this. Did you have any other comments or questions?
    Mr. Davis. No, Mr. Chairman.
    Mr. Souder. I want to thank the first panel and you are now 
dismissed. We will go to the second panel which is Mr. Tim 
Sauder, executive director of Gateway Woods Children's Home in 
Leo, IN. Mark Terrell, chief executive officer of Lifeline 
Youth and Family Service in Fort Wayne. Mr. John Green, 
executive director of Emmaus Ministries of Chicago.
    As you come in if you could each remain standing and we'll 
do the oath before you sit down.
    [Witnesses sworn.]
    Mr. Souder. Let the record show all the witnesses responded 
in the affirmative.
    Tim, if you are more comfortable that you affirmed, I 
actually write affirmed into the record when I take my oath. I 
am probably the only Member that writes that so we'll show that 
in the record, too.
    Let me say before these witnesses go ahead, in a further 
comment on one of the things that Congressman Davis made a 
reference to about politicians going to different places, one 
of the challenges of this hearing is where do we hold it 
because this is really to cover urban, rural, suburban. It is 
to cover Black, White, Hispanic kids.
    We chose to hold it here in your district as a member of 
the committee in this community but we are actually trying to 
represent a wide diversity of people, the majority of whom, 
quite frankly, are not African American in this zone so we are 
having all kinds of people come in but we came in to your home 
area rather than doing it in downtown Chicago or suburban 
Chicago or, for that matter, Springfield or Indianapolis which 
would be the State capitals because we think it is important to 
do that.
    The first witness in this panel is--we need to have quiet 
in the room. It is hard enough to hear already. Our first 
witness is Mr. Tim Sauder, executive director of Gateway Woods 
Children's Home in Leo.

 STATEMENTS OF TIM SAUDER, EXECUTIVE DIRECTOR OF GATEWAY WOODS 
   CHILDREN'S HOME IN LEO, IN; MARK TERRELL, CHIEF EXECUTIVE 
OFFICER OF LIFELINE YOUTH AND FAMILY SERVICE IN FORT WAYNE; AND 
 JOHN GREEN, EXECUTIVE DIRECTOR OF EMMAUS MINISTRIES OF CHICAGO

    Mr. Sauder. I am honored and thankful to testify before you 
today about the meaning, role, and substance of faith-based 
services. In our case, Gateway Woods is a distinctly Christian 
ministry. Our mission is to ``Honor and obey God by providing 
help and healing to troubled children and their families who 
may then bless others.''
    May I also add that Chairman Mark Souder's dad was 
instrumental in laying some of the groundwork for our agency 
near Ft. Wayne over 30 years ago and his mother served as one 
of our longest standing volunteers until recently.
    In the 1970's and 1980's faith-based services were often 
marginalized or excluded from much of the social services 
practice and academia, the very field that it launched over 
2,000 years ago. It is refreshing that Christian and other 
faith-based agencies and services have been ``rediscovered'' 
and revalidated in our society's desperate and practical search 
for something, anything that really works.
    I am simply grateful to our President, to Congress, to the 
Governors, administrators, some good old-fashioned county 
judges, and all you have some common sense for opening their 
minds and hearts to partnerships and resources for the sake of 
our Nation and its people.
    I served as the administrator of Gateway Woods for 17 
years. We are a Christian multi-service agency providing 
services to troubled children and their families in Indiana and 
Illinois.
    We provide substantive help and long-term hope through our 
services. As we say, we treat the whole person, the whole 
family, the whole problem. We address the very beliefs and the 
attitudes and behaviors that drive dysfunctional and 
destructive lives.
    The programs of Gateway Woods include residential childcare 
with three group homes on a 50-acre rural campus, Gateway Wood 
School which is a new 13,000 square foot alternative school for 
middle and high school students, home-based services and 
aftercare, specialized foster care, adoption both domestic and 
foreign, in-home Christian counseling, and prevention and 
restorative services which include mentoring and training on 
marriage, parenting, conflict resolution, family finances, 
fatherhood, etc.
    Some quick facts to let you know how, why, with whom we 
operate, and how we are held accountable, and how we know what 
we do really works. Our motivation is very simply stated. We 
have what they need and we would be neglectful, selfish, and 
disobedient not to share it.
    I understand that the most recent faith-based and 
government collaborations are aimed at addressing poverty. We 
do so indirectly but substantively and permanently by teaching 
spouses how to thrive in marriage, parents how to raise kids, 
families how to function, and kids how to learn and work.
    We are part of an ongoing, longitudinal effort by IARCCA, 
State childrens services association to carry out its landmark 
outcomes measures research. This project tracks such simple but 
critical life components as family reunification, 
restrictiveness of living environment, school attendance and 
grades, contact with the law and employment.
    On most measures our scores at Gateway Woods are at or 
above the State averages. Also our colleagues usually only 
follow their discharged clients for 6 months, we at Gateway 
Woods follow them at 6, 12, and 24-month intervals to ascertain 
and assure longstanding change and success.
    Our other accountabilities and affiliations include 
multiple licenses with the Indiana Division of Family and 
Children, accreditations by the Indiana Board of Education, the 
National Association of Private Schools, and a charter 
membership in the Indiana Association of Christian Childcaring 
Agencies. But our ultimate accountability is to God and our 
Lord Jesus Christ.
    We partner with numerous county offices of family and 
children and probation departments, the State Department of 
Corrections, who together refer most of our residents and 
clients.
    Whether government pays for the service or not, we will 
provide what is needed regardless of the client's ability to 
pay because we have coveted with our generous donors and our 
loving God. In the past year we gave away over $725,000 in free 
and subsidized care.
    We also serve as the extended family for our children and 
residents and foster children, even into adulthood by providing 
friendship, emergency finances, and scholarships for any kid 
who needs the help long after they have left our programs, 
after the government support has stopped, and case managers are 
gone. When the funding streams dry up, we will not.
    In all honesty, we have worked very well with State and 
local government schools, personnel, programs, and funding 
because Indiana, in particular, is a simple, unregulated 
nonbureaucratic State. I am from Illinois originally but by 
contrast our functioning here in Illinois is done--we provide 
everything free of charge and we really don't have 
collaborations with the government because of the bureaucracy 
of it.
    As a small agency we have been minimally involved in 
Federal programs because the cost-benefit ratio for us is not 
worth our human and financial cost or the hassles that take our 
time and taxpayer's funds away from what we consider to be the 
real work.
    We see a lot of needs in the system. We see a lot of ways 
in which we can collaborate and cooperate. We can talk about 
that later but I am thankful for this chance to be here.
    [The prepared statement of Mr. Sauder follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. Thank you very much.
    Mr. Terrell.
    Mr. Terrell. I want to thank you for inviting me to testify 
today. Lifeline was founded in 1968. We work in three different 
areas: Prevention, intervention, and aftercare. We work with 
children as young as 3 all the way through families. Our 
mission is to change hearts and to bring hope to a generation 
at risk.
    I have chosen not to spend most of my testimony talking 
about all the very specifics that we do. You need to know we 
worked last year with almost 4,000 children and families across 
one-third of Indiana, moving into Michigan and Ohio. We are 
very excited about that opportunity. We are looking for that to 
grow even this year.
    What I want to basically talk about is my perspective on 
faith-based organizations providing community services. As was 
mentioned earlier by someone else, faith-based organizations 
have been providing community services from the time of our 
country's founding. The question shouldn't be whether or not to 
invite faith-based organizations to the table. The question 
should be who can provide the most effective service for the 
client.
    I understand the reservations of those of different faiths 
and those of no faith at all. The government's responsibility 
should be to help correct the social ills that are present, not 
to chastise those who because of their faith, have chosen to 
make a difference in their community.
    We should allow our clients to make a choice of whether or 
not faith is an issue. If the client is morally or ethically 
against faith, or a particular faith, give them an opportunity 
to choose to work with an organization who espouses no faith at 
all.
    By giving the client the power to choose we dramatically 
reduce the argument, the frustration, and the dilemma of 
whether or not to allow faith-based organizations to provide 
services. The discussion should then be who can provide the 
best service at the best cost. Allow the free enterprise system 
to work within social service. Those who produce the results 
will, in the end, be left standing and those who do lip service 
to what they provide will, like most unsuccessful private 
enterprises, go by the wayside.
    How do you determine who is successful or not? Determine 
what you, the government, believes is important, communicate 
what you believe is important, and hold agencies accountable to 
meet those expectations. At Lifeline, we spent the last 5 years 
working very hard to develop our outcome studies, our outcome 
measurement tools, and using those tools to evaluate our 
programs.
    Each quarterly evaluation comes with a mixture of disbelief 
and joy. The disbelief is where we are baffled as to why a 
particular program outcome is less than desired and complete 
joy when we achieve an outcome that has never been reached 
before. We desire at Lifeline to be the best at what we do and 
have realized that we will only be the best at what we do if we 
are willing to ask the hard questions and look at information 
that is unpleasant to review.
    In the book Good to Great the author, Jim Collins, espouses 
the importance of determining what you don't do well is just as 
important as determining what you do well. It is his contention 
that you will never be a great company, great social service 
agency, great school, or even a great government until we are 
willing to focus on getting rid of what you can't be best at.
    With that said, we are willing to compete with other social 
service organizations of faith, different faith, or no faith at 
all. When those expectations have been clearly determined, 
clearly communicated, and honestly evaluated, we are confident 
that Lifeline and other faith-based organizations will be left 
standing still providing services, and still will be providing 
great work. Thank you very much.
    [The prepared statement of Mr. Terrell follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Souder. Thank you.
    Mr. Green.
    Mr. Green. Good morning. I am Deacon John Green. I am an 
ordained permanent deacon with the Catholic Archdiocese of 
Chicago. For the last 13 years I have worked with male 
prostitutes in the city of Chicago.
    I would like to start by asking the Congressmen, suppose 
you walk outside to lunch today and you get hit by a car and 
you are sucking out of a straw for the next 3 years. What is 
going to sustain you? Hopefully your faith comes to mind, your 
family, your education, your friends.
    As I started working with male prostitutes I realized that 
this safety net that all of us have didn't exist for these men. 
About 5 miles from here is a place called the 1950's McDonalds 
which is an all-night McDonalds. I sat with a man named Johnny 
in 1989. Johnny shared that for the last 3 years he had gone 
home with the last trick of the night and he had woken up in a 
different place every day.
    As I started to understand his background, he shared with 
me about early sexual abuse that began when he was about 11 
years old and continued until the age of 16. He shared with me 
that he was from a third generation family who most of the men 
in that family had spent time incarcerated. He was second 
generation welfare.
    As he began to just describe that, I realized that this is 
a man without a safety net. I had spent a little bit of time 
before that working in New York City with Covenant House and 
through an experience at Covenant House I began to grapple with 
Micah 6:8. ``Oh man, what is it that the Lord asks of you? Only 
this, that you live justly, love tenderly, and walk humbly with 
your God.''
    About 14 years ago I began to ask those three questions of 
my own life. What do I need to do to live justly in this world? 
Who do you, Lord, call me to love tenderly and how can I walk 
humbly with you? Asking those three questions has led me into 
working with these men involved in prostitution. We do three 
things at Emmaus. We develop ministries of evangelization, 
transformation, and education. The first two are focused on 
reach out to men involved in prostitution.
    In 1970 20.7 percent of prostitution arrests in the United 
States were of men. By 1998 the number had risen to 42 percent. 
That is from the FBI uniform crime report of 1998. During that 
same time nationwide arrest for male prostitution rose 16 
percent in the years between 1989 and 1998, whereas arrest for 
female prostitution dropped 13.3 percent. Male prostitutes 
blend into the urban environment.
    People don't know about them. People don't care about them. 
During the summer of the year 2000 my wife and I traveled to 23 
different cities around the country and we spent time talking 
with men involved in prostitution all over. We saw the need 
that exist. In Chicago about 3,000 men are arrested for 
prostitution each year.
    So evangelization. We go out in the streets at night in 
male/female teams. We try to set up our teams male/female, 
White/minority, under 30/over 30, Catholic/Protestant. We are 
an organization that tries to bring Roman Catholics and 
Evangelical Protestants and others together in faith-based 
work.
    We go into bars where men are involved in prostitution. We 
go into street area. We just build a relationship and bring 
some hope into the midst of what they are doing. As we do that, 
we introduce them to our ministries of transformation. The bulk 
of that is at a drop-in center that we have in the uptown 
neighborhood at 921 West Wilson.
    In 1996 my wife and I had some inheritance from a 
grandfather and we did the good thing that all young couples 
do. We invested in Cisco Systems. Then we wrestled with having 
that wealth and where your treasure is, there your heart is 
also.
    Our treasure was not in Smith Barney in Boston so we bought 
a crack house in the uptown neighborhood and have transformed 
that into a ministry center. It is a drop-in center during the 
day for guys that are met by our outreach teams. We have about 
150 men a year that come through the drop-in center. Each year 
we see about 20, 25 of them off the streets.
    We also have ministries of education where we focus on the 
church trying to educate the church about issues of male 
prostitution and trying to get them involved. One of the things 
we do is we host a program called Wheaton in Chicago where 
Wheaton college students come and live with us each semester. 
We've had 37 students through that program and we teach them 
about urban ministry, teach them about urban living.
    Let me back up a little bit, our Ministries of 
Transformation. We also had a residential program going for 
about 2\1/2\ years and we had to close our residents program 
after September 11. We had a real decrease in funding, about a 
$60,000 drop. We are hoping to open up that residential program 
again this year.
    During the time that we had that residence open we had 37 
different men--oops, I am confusing my statistics. Sorry. 
Thirty-five different men come through the residential program. 
Half of them continue to be off the streets and to be doing 
well.
    We started with just me and a couple of volunteers about 13 
years ago walking the streets. We now have 10 staff in two 
cities. We just expanded to Houston, TX, last year. We are in 
the process of expanding to some other cities. Our budget is 
about $400,000 a year.
    We also have a volunteer program where people commit to a 
year of ministry with us. We give them room and board, medical 
insurance, and $20 a week. If you are looking for a change of 
location, let me know.
    We are hoping to expand to five other cities around the 
country in the next 7 to 8 years and eventually we want to open 
up a long-term residence where guys can come for 2, 3, maybe 4 
years. What we have learned is that the amount of devastation 
that happens in men's lives that lead them into prostitution is 
not going to be solved by 6 months in our residence program or 
through our counseling.
    It is going to take long-term effort. We need to teach them 
a trade. We need to help them get a GED. We need to help them 
restore their understanding of healthy sexuality. We need to 
repair that damage that has been done spiritually, 
psychologically, and emotionally. For us that means a long-term 
thing. We are hoping as we get these five Emmauses going in 
other cities that those will feed into a long-term program.
    One of the most devastating things that we have found in 
the last few years is that we are beginning to see more and 
more really young children involved in prostitution. Young men 
involved in prostitution in the city of Chicago. When I started 
we would very rarely see men under the age of 18 in the city of 
Chicago. In the last 3 years we have begun to see 12-year-olds. 
12-year-olds!
    I think there is a number of reasons for this. I think 
there is a lot of age inappropriate sex ed that is going on in 
our schools. I think many families have been very strongly 
impacted by the welfare reform that has gone on and leading 
many kids to that. I think also just the sexualized nature of 
our culture.
    I would like to close with challenging Congressman Davis a 
little bit on this preferential hiring. You talked about seeing 
those drug reform programs where people were singing and 
praising the Lord. If you take away the option for faith-based 
organizations to preferentially hire, you will take away that 
faith that you saw. You will take away that vibrancy in Christ.
    I am interested in getting men out of prostitution and 
walking in the saving knowledge and relationship with Jesus 
Christ. If I can get one out of two of those, I am happy. If I 
get both of them, I am ecstatic.
    But I need to preferentially hire people of faith, people 
who have my same values or an organization that has the same 
values to do that. I don't think, as some of the other 
presenters will have presented that is impossible to do in a 
relationship between government and faith-based organizations. 
Thank you.
    [The prepared statement of Mr. Green follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Souder. Let me start again by laying out a little bit 
more. We have written testimony but for the record a little bit 
about your missions and start with Mr. Sauder. His way of 
spelling Sauder is correct. It is the German way, but when the 
Sauder families first came in to the United States and 
Pennsylvania, there is a Sauderton and Souderburg that is 
spelled SO. Everybody kept calling us Souder so some of them in 
Illinois where Tim is from went back to the SA and in Indiana 
we have more of the SO. In Ohio it is mixed.
    I want to double make the point that you made that was 
really interesting in your testimony. You take government money 
in Indiana because the requirements and the contracting out 
give you more flexibility, but in the State of Illinois you do 
not because the requirements are tighter.
    Also a point I want to make for the record is for 16 years 
we have had Democrat Governors in Indiana and Illinois has had 
Republican Governors. Indiana Democratic Governors have 
consistently wound up with high marks from those in the faith-
based community because they have given more flexibility to the 
faith-based community, whereas a number of the Republican 
Governors have not.
    For those who think that this is just a straight partisan 
issue in Washington and at the grassroots level, it is a tad 
more confused when you come into the State-based level because 
in Indiana it does not work the same way as Illinois. We have 
seen it flipped on its head.
    Now, Gateway Woods started as a direct ministry of the 
Apostolic Christian Church. It evolved and started to take kids 
assigned and, if I understood your testimony correctly, you 
said over half now are either coming from Division of Family 
and Children or the Probation Department or the State 
Department of Correction.
    Mr. Sauder. It is more like about 70 to 80 percent of our 
children are referred through public agencies.
    Mr. Souder. Could you explain a little bit of that 
evolution, what impact and changes it had on you and if the 
State required you to change your hiring practices or different 
things, what would you do?
    Mr. Sauder. There are several questions there. One, in 
Indiana the government provides very few of its own direct 
services so it subcontracts to private providers. Secular 
providers, Christian providers, for-profits, not-for-profits, 
they go out in a sense in the market place and purchase service 
of all kinds. It is not just residential childcare or foster 
care.
    In a sense, it is a very healthy symbiotic relationship. 
The government needs us because they don't have the services 
available. We need them because that is not only a source of 
accountability with these kids who often need a judge and a 
case manager or probation officer or someone. Also it is a 
source of referrals for us in finding those kids who really do 
have the need.
    About 20 to 25 percent of our children are placed privately 
by their families and these are kids primarily where the 
families are having a lot of trouble. They are having trouble 
with the kids and the child hasn't gotten hooked into the 
system yet through abuse and neglect or through delinquency. 
The family knows that there are big problems and they are 
trying to solve those problems before they get even worse. Even 
with those children who are coming privately, they are not 
necessarily really connected with our church at all.
    Now, as far as the hiring and so on in Indiana, we are 
licensed by the State of Indiana as a residential child caring 
organization. We are also licensed as a child placing agency. 
That is the title of the license for foster care and adoption 
in Indiana. There are a set of regulations. There is an annual 
license review, if you will, by State officials and so on. I 
may need to ask you to restate or repeat your question on some 
of the hiring issues.
    Mr. Souder. Would you hire a Muslim?
    Mr. Sauder. I would not.
    Mr. Souder. What would you do if the government said, for 
example, if you were counseling the house parents at the 
children's home and found that one of them was abusing their 
own children but the spouse and the child would not go forth to 
the court, would you still fire that parent which you could not 
do with a government grant?
    Mr. Sauder. I've got to think on that one.
    Mr. Souder. Because this is an important thing because 
religious organizations at times will say, ``We will continue 
to counsel you. You are welcome to come to our church. We will 
include you in those programs but we are not going to put you 
in a place if you are practicing pornography where you are 
dealing with children.''
    But you could not get in with a government grant under some 
of the guidelines that are proposed and have somebody who is 
addicted to pornography and remove them from the position 
unless that has been established as a risk in a court situation 
because that would be a religious opinion, not something that 
is condemned by law.
    Mr. Sauder. I am not sure how the labor laws differ between 
Indiana and Illinois. Maybe those are irrelevant if we are 
dealing with a Federal grant. In our case currently there are 
indirect Federal funds that come to us through the State 
administration through education and so on, but at the moment 
we don't have any government grants directly to Gateway Woods. 
We are a contractor with the State.
    Also, our employees--right up front one of the other 
gentlemen in the previous panel, I think Mr. Terrell, also 
mentioned about making sure that up front everyone understood 
what was the agreement that they were coming into employment or 
work or ministry with our organization, the kind of clients 
they were going to work with, what their job description was, 
if they understood those expectations and that there was, in a 
sense, a contractual agreement inherent. If they were to 
violate that as in not fairly performing their work in whatever 
way it was, we would need to work through that process.
    We would not necessarily immediately fire that person. We 
would first of all try to sit down and talk, work through the 
situation, probably involve a counselor of their choice and to 
see what kinds of issues these truly were and if they were ones 
that were endangering the lives of the children who they are 
entrusted with. By law in the State of Indiana we cannot have 
employed at our place someone who is a sexual offender or 
someone who is an abuser or someone who----
    Mr. Souder. That has to be proved.
    Mr. Sauder. Yes. And we are under a State reporting 
guideline that if there is suspected abuse either between 
children or from staff to children or from the children's 
parents and their children, we are obligated by law to report 
that.
    There is an institutional abuse outline and the State has a 
system by which that would be investigated. In fact, in all 
honesty, it would be the State that would force us to fire that 
person before we would as quickly as we would. I guess I'll say 
it that way. It is an issue of protecting children that takes 
precedent as far as I understand.
    Mr. Souder. Let me ask Mr. Terrell a variation. If you had 
somebody who on their own time like, let us say, they had 2 
days off and they were drunk on those 2 days, which did not put 
the kids at risk but they were getting drunk on their own time 
or were known to be carousing around town setting a non kind of 
traditional family example, a moral example, would you keep 
that person on staff?
    Would you counsel them through it? Would you suspend them 
in short-term while they tried to work through? But if they 
continued that behavior after counseling, would you let a 
person who is, in effect, in a Christian sense living in sin 
continue on your staff?
    Mr. Terrell. Well, first of all, we will work with them. We 
have had situations like that. You can't employ 100 people and 
not have those issues.
    Mr. Souder. Everybody is the same.
    Mr. Terrell. Exactly. So our first course would be to work 
with them, counseling. The second part is we also look into 
what Tim mentioned: how does this affect the work that they are 
doing? Again, if we would find that it is going to have a 
detrimental effect, you can't hire someone that is supposed to 
help young men and children to be responsible when they are not 
responsible. You can't do what you don't possess. Again, that 
is an issue that we have to work with and we wrestle with.
    Mr. Souder. But if it is not illegal, you would still have 
it.
    Mr. Terrell. We would have to work through it and it would 
be a case-by-case basis. Again, we do drug and alcohol 
counseling with our people. Some of the best drug and alcohol 
counselors are ones that had that issue. But they have 
transformed their lives. They have changed. But if they are 
still doing it, you can't tell someone not to do it.
    Mr. Souder. Any Christian knows that the fundamental is 
repentance and that we also fall back and come back. The 
question is a hardened sinner who will not change and the 
behavior is not illegal, would that compromise your ministry?
    Mr. Terrell. Yes. Absolutely.
    Mr. Souder. In the contracting out of different services 
that you provide, you provide them for school systems, for 
different government contracting much like variations at 
Gateway Woods, different types of things, could you--well, you 
mentioned that even in multiple States. In Fort Wayne we have 
the largest population of Burmese dissidents in the United 
States most of whom are not Evangelical.
    The government has looked at providing some service to them 
through some of their religious communities but they would not 
be able to have a Buddhist outreach program under the 
guidelines either. In other words, we think in terms of this as 
Christians but, in fact, this will limit some other religion's 
ability to do this as well.
    We have seen this in Fort Wayne where there is a discussion 
of how best to deliver services to some of the new immigrant 
populations that are not Christian but don't want to have their 
religion secularized either. Could you explain--you elaborated 
a little bit but how much in what you do do you believe the 
effectiveness of your staff and individuals is the power of 
Christ and how much is that integrated into your ministry?
    You have other issues as well. Can you really separate it? 
Can you separate it in some programs and not others? I've been 
there. I've looked at some of the tapes. I know you work at 
that question but it is really a fundamental question. Would 
your donors continue to support you if they thought, ``We could 
do this in a secular way and it isn't the transforming power.''
    Mr. Terrell. I think it is the most fundamental question 
obviously that you are wrestling with. It is vital that the 
people that work for me and work with the clients that we work 
with have similar values and the faith that we do. No question.
    What would it do with the donors? We raise a significant 
amount of our budget outside of the contracts that we get with 
probation, welfare, and Department of Corrections. They give to 
us because they know that we are a faith-based organization and 
that we are hiring Christians. We are hiring people with faith. 
They are going to make a difference.
    There is a statement that everyone says that people are 
your best asset. We have all heard that. I have agreed with 
that. I have come to disagree with that. The right people are 
your best asset. That is the most significant thing for us. 
Public schools are all over the State of Indiana now and we are 
not there to primarily make them Christians. We work with 
people of all faiths, but it is amazing to me. We have a 
curriculum that is not a Christian curriculum, but it has 
faith-based principles underlying it.
    All of the facilitators that go in are Christians. It is 
amazing, the results that are happening. That is not by 
accident. That is truly a belief that is ordained by God that 
that has happened. Now, we are not there to talk about our 
faith with Christ. If a young man asks us, ``Tell me about 
it,'' we are going to be open and share that. We let schools 
know that is where we are at. But, it really comes down to the 
government and our Nation need faith-based organizations to be 
there.
    If you remove our ability to determine who works with us, 
you will eliminate our ability to do our work. I would much 
rather see us compete. I have talked to Social Service 
providers and they hate that word. Compete with outcome 
measures and allow the proof to prove who is more successful. I 
am willing to join into that dialog and put it there. To answer 
your question, I truly believe that it will make a fundamental 
difference on how we can be successful or not.
    Mr. Souder. Thank you. I've gone over my time. I'll yield 
to Mr. Davis. I first want to say to Mr. Green, and I'll ask 
you some comments after Mr. Davis, but thank you very much for 
your ministry and your comments. We wanted to include you today 
because it is different than a lot of other ministries but very 
important part of reaching out to the diversity of challenges 
we face.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Sauder, is Gateway Woods a 501(c)(3) tax exempt not-
for-profit organization?
    Mr. Sauder. Yes, we are.
    Mr. Davis. What do you see as being the difference between 
what is being proposed for faith-based initiatives that is 
different than the requirements of a regular 501(c)(3) tax 
exempt?
    Mr. Sauder. I am not sure I understand your question.
    Mr. Davis. Let me try to restate it. If I am a 501(c)(3) 
tax exempt organization, do I need anything else to get money 
from the government or to run Social Service human service 
programs or to get money from philanthropists or to get money 
from public entities? I am saying if there is no difference 
between a 501(c)(3) tax exempt regular not-for-profit 
organization and a faith-based initiative, why would I need a 
faith-based initiative?
    Mr. Sauder. When you say faith-based initiative you mean a 
collaboration with the government?
    Mr. Davis. Well, I am saying----
    Mr. Sauder. We are a faith-based initiative whether the 
government is around or not. I am not sure if I----
    Mr. Davis. Let me try to do it. Many hospitals are faith-
based. Catholic Hospital is a faith-based initiative. Many 
colleges and universities are faith-based initiatives. That is, 
they are run by, they were established by religious 
denominations. But they have established themselves as 
501(c)(3) tax exempt status organizations in order to have the 
benefit of not having to pay certain kinds of taxes and to 
operate under rules and regulations. My question is if all of 
this exist for the group, what would a faith-based initiative 
mean to them that a 501(c)(3) tax exempt status does not 
already mean?
    Mr. Green. Can I make a comment on that?
    Mr. Sauder. Please do.
    Mr. Green. I understand what you are asking, Chairman 
Davis--Honorable Davis. Sorry. The question needs to be asked 
to the government because it is the conditions that the 
government puts on funding. The government can write my 
organization a check and I'll send you a receipt and it will be 
tax exempt and everything else, but the conditions of 
preferential hiring, the conditions of no proselytizing, all 
those conditions you add to the funding that would come through 
Department of Human Services, come through the Department of 
Housing.
    I think the question needs to be asked of the government, 
not necessarily to a faith-based organizations because anybody 
as a 501(c)(3) can make a charitable donation to any of our 
work.
    Mr. Davis. But you can't proselytize. You can't get 
government money.
    Mr. Green. I am saying that is a condition that government 
has then set.
    Mr. Davis. Let us say I want to get hired as a Baptist 
preacher. I want to be hired as a Baptist preacher. Now, I know 
the Bible a little bit, Genesis, Exodus, Leviticus, Numbers, 
Deuteronomy, Joshua, Judges, Ruth, Esther, Job, Ecclesiastes, 
Solomon, Songs of Solomon, Mark, Luke, John. I've read some of 
that so I know a little bit about Christianity.
    My conceptualization of Christianity which comes from the 
teaching of Jesus the Christ, it seems to me this cat was more 
inclusive than exclusive. I am saying from my study of it. 
Somebody else may have a different notion of it. It seems to me 
that if I exclude people that I ain't really following what I 
call Christianity.
    I mean, Jesus went and got whoever he could get and he 
didn't ask them--he didn't ask the little boy, ``Look here, 
son, are you a Christian? Because if this fish you got and this 
bread, if it ain't blessed or holy, maybe I can't use it.'' I 
am trying to understand.
    Now, if they decide that they are not going to hire me 
because I know all this stuff that I know because I can't 
whoop. Black Baptists they like for people to whoop. You can 
know all about the Bible but if the church decides that you 
can't whoop, they may not hire you. Now, are they 
discriminating against you on the basis of faith or are they 
saying you don't meet their requirement to be their pastor 
because you can't whoop? If a person is an alcoholic, I know a 
lot of Christians who are alcoholics, as a matter of fact.
    I mean, who profess their alcoholism. Well, they go to 
church and they are on the deacon board and, you know, they do 
all the other things but they still got some problems with 
alcohol. You know, they have a little nip before the service 
starts. We used to have a cat at our church who would go out 
and get a shot before he would pray.
    Everybody in the church knew that he needed a little help 
before he got started. He was a member of our family, a cousin, 
but he was one of the main deacons. I am trying to determine 
what this discrimination business really is and what we are 
discriminating against if we decide that certain kinds of 
people can't work.
    For example, a Muslim. Well, I am trying to understand. 
What it is that a Muslim would project in a counseling program 
or social service program that would make him or her 
unacceptable to a Christian organization? I guess I have 
difficulty understanding that description of faith.
    Mr. Terrell. I'll try to address the question. To use your 
example about being inclusive and exclusive and talking about 
our Christ, I truly believe we need to be inclusive and to work 
with as many faiths and with as many people as we possibly can. 
But our Christ was exclusive on who he had working with him. No 
question about it, but he picked people from all different 
walks of life, tax collectors, smelly old fishermen. But the 
bottom line is there was a common theme that all of them 
possessed.
    That is really what we are asking to be able to do is to be 
able to--I do not personally have a problem if the Muslims 
decide to have a program to work with the indigent, the poor. I 
don't have a problem. I have some very good friends that are 
Jewish. I have no problem with that and we have lots of 
discussion. They would not want to hire me to talk about the 
New Testament even though we agree on the Old Testament.
    It doesn't mean that they don't do great work. I think they 
do great work. But I think for us to do the kind of work we 
need to do, we need to be able to be exclusive in who we hire 
so that we can do our best work. I know that is not the 
politically correct comment but I really truly believe that is 
the right answer.
    Mr. Davis. Well, I guess I just asked are we taking this in 
terms of--I think it is hanging us up and it is holding us up 
on what otherwise would be great initiatives. I mean, the idea 
is having some body who will work with male prostitutes and who 
will raise this. I mean, that is super commended.
    I mean, that is an area that lots of folk don't really know 
much about and don't know much about or don't have much 
understanding. The same thing I think is true with the whole 
question of sexual preference. I mean, I remember a group of 
ministers telling me one time that they just did not understand 
my position in relationship to that.
    I countered to them that it just seemed to me that if there 
was somebody who was going to understand all people, that 
ministers would have a better way of doing that than anybody 
else because of their faith and religious training and 
religious upbringing.
    Of course, they suggested at the moment that God made Adam 
and Eve, not Adam and Steve. I think we have come a long way in 
this country relative to our understanding of just what faith 
means. It just seems to me that in some instances we are going 
beyond and denying ourselves the opportunity to reach agreement 
on some solid points.
    Mr. Green. One of the issues with the whole preferential 
hiring, just because I would preferentially hire someone of 
faith and that has the same values, that doesn't automatically 
mean my work would be discriminatory. You mentioned the whole 
issue of sexuality.
    That is an issue that our organization obviously deals with 
quite a bit and we have a position on sexuality that says 
sexual intimacy, the context of that is one man, one woman, one 
lifetime period. Anything outside of that is not what God 
ordains.
    There are a lot of people and conventional wisdom in our 
society is going to say that is being discriminatory. That is 
being homophobic or whatever. With our organization I deal with 
men who are involved in prostitution. Seventy-five percent of 
men who are involved in prostitution are actually heterosexual 
in their orientation. Most of them are doing this because of 
poverty issues.
    I deal with guys who are transgender. I deal with guys who 
are bisexual. I deal with all sorts of different sexual 
struggles but our organization, and the staff of our 
organization, have a very historic view of sexuality. Yet, we 
don't discriminate against any of those men. All of them are 
welcome to come to our organization and welcome to come into 
our drop-in center.
    Even if they say, ``OK, John. I disagree with you on my 
sexuality. I want to stay a transgendered individual.'' ``Fine. 
We are going to try to work with you as best we can. We will 
try to find you housing.''
    Mr. Davis. Would you hire one?
    Mr. Green. Absolutely not.
    Mr. Davis. You would not hire one no matter how much 
experience they may have had or how good they are or how well 
they can relate to other people? They just simply would be 
denied the opportunity?
    Mr. Green. To work for us, yes.
    Mr. Davis. Even though they have all this experience. They 
can put themselves in the shoes of a person who is going 
through what they have gone through? They probably have a 
better understanding of it than most people. I have always been 
told if you really want to understand an Indian, try walking in 
his or her moccasins. I mean, that is something I don't 
understand.
    Mr. Green. Yet, if you go to the hospital and your doctor 
says you have cancer and he does not have cancer, are you going 
to not believe him?
    Mr. Davis. No, but I will tell you what. I wouldn't want to 
go to a hospital where someone told me that even though I have 
all the requirements to be a doctor, I have all the medical 
training, I have written 12 books, I have operated on 200 
people, I have done all the stuff that you do, but because I am 
a Muslim and the hospital is something else that I can't 
practice there.
    I would say take me on to some place else and treat me. I 
am saying I feel that strongly about discrimination. Maybe it 
is because I am African American in the United States of 
America. Maybe it is because my foreparents were only counted 
as three-fifths of a person when the Constitution was 
established.
    I wasn't counted as a whole man or a whole person. Or maybe 
it is because of some of the other discriminatory practices 
that I have experienced. I remember my brother and I were 
looking for a job one summer. We would go in a place and I was 
told that I had too much education. I had a masters degree and 
he was about to finish college and he was told he didn't have 
enough education.
    We would come out and compare notes and we just kind of got 
used to it. People have a tendency to become and to think as 
they have experienced. Maybe that is why the discrimination 
opportunity looms so greatly with me because I think that we 
just need to become more inclusive than exclusive.
    Mr. Green. Yet, you do discriminate, Congressman. Don't we?
    Mr. Davis. Yes, we do. It is a common practice of life but 
religion to me says that we are always becoming. Just because 
we discriminate today, that doesn't mean that we keep trying to 
discriminate tomorrow. I mean, when I go to church I hear songs 
like, ``Just a Closer Walk with Thee.'' You know, ``Nearer My 
God to Thee.'' ``I am Coming Up, Lord.'' I have never seen a 
Christian that had enough religion so just like we are becoming 
as individuals in our lives as related to Christianity, it 
seems to me that our Nation would be becoming and trying to get 
a little bit better than what we have been.
    Trying to understand things that we have not understood 
before and trying to reach that point where, as I guess Martin 
Luther King would say, God's children will be able to walk hand 
in hand and say we are an intimate part of this great Nation 
that we have created and we just want to make it better. That 
is how I see the discrimination question.
    I really hope that we can resolve it so that we can get on 
with the faith-based initiatives, that we can get on with what 
the President is proposing so that some institutions--I mean, 
the thing that amazes me the most and intrigues me the most is 
I believe that faith-based programs can probably do much more 
in some areas because of the faith orientation than a nonfaith-
based organization.
    Since money is so tight and we have lost so many jobs and 
the economy is in bad shape and I don't see it getting in good 
shape soon, I just want to make use of all this resource that 
we have in people of faith. I hope we will be able to do that.
    Thank you, Mr. Chairman. I think I have gone over my time, 
too.
    Mr. Souder. Thanks. I am going to do a little bit more and 
you are welcome to as well. Let me first ask Mr. Green. Do you 
know if the people who are trying to reach out on the streets 
who are male prostitutes, is government doing anything to help 
them?
    Mr. Green. Is government doing anything to help male 
prostitution? Yes.
    Mr. Souder. Are there programs right now in Chicago that, 
in fact, you see out on the streets when you are trying to help 
these guys?
    Mr. Green. Yes. I would say there are others that work with 
generally the homeless population. We have not met another 
organization in the country that specifically works with male 
prostitutes. It is just too hot of an issue. It is just too 
difficult of an issue. We have met three other faith-based 
organizations that have outreaches to the homeless in general 
and are starting specific programs for male prostitutes.
    Mr. Souder. Years ago when I was Republican staff director 
of the Children and Family Committee in the mid-1980's I would 
say I went with Covenant House in Chicago all night on one of 
the vans distributing sandwiches and lemonade. It wasn't 
targeted specifically toward male prostitutes but a fair number 
were either transvestites or male prostitutes who we met in the 
van so while that ministry wasn't targeted, Covenant House 
locations around the country I think have done some in the 
ministry targeted to that group.
    Mr. Green. And I worked for the New York Van Program for 2 
years.
    Mr. Souder. What has been kind of interesting, and you got 
a taste of our Washington debate and why I have been very 
cautious at urging any faith-based organization that wants to 
maintain their traditional Christian, Muslim, Buddhist, 
whatever their orientation is, Jewish, about applying for 
government grants, because you heard a little bit of the 
difficulty of distinction of the historic trend that churches 
never before in contact, even if they had government funds, 
have been asked the questions on hiring that they are currently 
being asked because it was viewed as a Constitutional 
protection for people to hire people of their own faith if you 
are giving money for that faith.
    If we are going to tap into those faith-based 
organizations, which are probably the majority of faith-based 
organizations in the United States, but not all because some 
churches are more ecumenical, but if we are to tap into these 
services, we have to figure out how to reconcile it. I am fast 
coming to the conclusion this is going to be very difficult.
    I, for example, give to numerous Christian ministries and I 
am interested in them as Christian ministries, not in 
government watered-down ministries where faith is not a key 
part of it. This is a very difficult question because it hits 
into a fundamental question that none of us want to talk about 
and that is discrimination. It implies judgment.
    Now, many denominations, all religions, believe that their 
religion is the right way or they wouldn't practice that 
religion. Each of you represent a Christian based organization. 
Is it correct to say that unless somebody accepts Christ, you 
wouldn't define them as a Christian mission? If that is the 
case, do you believe that each of your ministries are commanded 
by scripture to be a reflection of Christ? Not perfect but the 
reflected glory of Christ?
    Each of the witnesses said yes. Now, if they are to be a 
reflected ministry of Christ, then just as a Muslim or a 
Buddhist would reflect their ministry to be that. If you have 
somebody else, your ministry by definition would change if you 
had people who were not reflecting Christ. This is not a new 
question. It is not a question of trying to go around 
condemning people. It is a fact that people are giving you 
money, people are volunteering in your organizations because 
they share that commitment.
    The reason I ask the question is because your ministry is a 
terribly important ministry of some of the hardest to reach and 
hurting people. I just can't commend you enough. Those of us 
who are living in comfortable lifestyles feel terribly guilty 
and will go right back to living our comfortable lifestyles but 
we very much appreciate your sacrifice.
    Mr. Green. You need to ask that question how we live 
justly, though.
    Mr. Souder. God will honor you for that and less than honor 
some of the rest of us who aren't doing it including me. It is 
interesting that the faith-based programs started in government 
in the homeless area and nobody asked these programs who they 
were hiring or what their hiring practices were because it 
actually started with AIDS because people thought they were 
going to catch AIDS so nobody asked the Christian 
organizations, Mother Theresa or others, but in the U.S. 
Evangelical Lutheran, whatever the religion was, whether they 
were hiring preferential practices because nobody else would do 
it. Since nobody else was taking care of the AIDS patients, 
they didn't ask them the question.
    When we went to the homeless area, once again we don't have 
enough people doing this, so nobody asked the churches what 
their hiring practices were because everybody was so relieved 
that different organizations were getting involved with the 
homeless.
    This question has become hot as we have moved into 
categories where you are competing with others and it is now 
going back so when an African American church wants to compete 
for a Head Start Program grant, all of a sudden the Head Start 
people go, ``Well, we don't know about the rules they are 
under.''
    Similar in drug treatment as we saw in San Antonio where we 
had several witnesses who forthrightly said that some of the 
other faith-based drug treatment programs shouldn't get the 
money.
    They would rather have it go to the traditional 
establishment people who know how to write the grants, who get 
the government grants, and not to many of those people in the 
communities who are faith-based who don't want to go through 
all the government hiring practices and who want to have 
flexibility to do it as those churches always have. But they 
are saying, ``No, we've got to do that.''
    That is partly what has brought on this pressure that we 
are debating and that what we are working through. What is 
really discouraging is that because the faith-based has kind of 
expanded, some things now are going to go back to some of the 
people who are getting government grants or indirect grants and 
the government is potentially going to come back to those 
groups who now have the money and say, ``Unless you change the 
practices in your church and your religious group, even though 
you have been getting this money for 10 years, you can't do 
what you have been doing.''
    This is particularly going to hit many in the minority 
community where the churches are more integrated. That is still 
an exception in a lot of the suburban and rural areas where the 
church may or may not be as integrated in as it is culturally. 
The question is are we in government actually going to force 
changes that will change the nature and the definition to be 
instead of a Christian church or a Muslim or Jewish Synagog, 
that we are going to make everybody so amorphous that nobody 
has a clear mission.
    This is the very debate we are having that you have heard 
today over the definition of the word faith. What faith means 
really has not been clear and there is absolutely no 
understanding, point blank, on either side of what the previous 
Constitutional provisions were that protected and made churches 
unique.
    That is why the Rev. Beasley thing of the 501(c)(3) as 
Lifeline has done and as Gateway if they are going to continue 
to do what they are doing, and if you want to get into 
different government grants, I believe there is going to have 
to be these groups that say, ``Well, maybe our computers can be 
paid by the government.'' Maybe our building can be paid but 
what we are doing on a day-to-day basis is so much wrapped up 
with our faith that we don't want to get tangled up into this 
governmental debate.
    Do any of you have any comments on that?
    Mr. Green. One comment I would like to make is when the 
whole faith-based initiative came forward I read a book called 
Seducing the Samaritans by Joe Laconte. A wonderful book. He 
actually traced the history of, I think, 13 or 17 nonprofit 
organizations in the Boston area and they all began as vibrant, 
Christian ministries.
    They were all essentially seduced by Federal funding. All 
of them have lost all of their Christian components. They would 
say they are based upon the Gospels or whatever but there is no 
effort to really live out the Gospels in a concrete way because 
they were seduced by government funding. I think that is a 
wonderful resource to look at in the midst of this whole 
discussion.
    Mr. Sauder. I don't know if I have the answer but I keep 
coming back to the question what works. Do we care about making 
sure that we have covered every little nuance of each 
Congressman's or each judge's list of things that are dos and 
don'ts and in the process kids and families continue to fall 
apart.
    I know I maybe am being idealistic but I want to keep 
coming back and reminding Congress, encourage you, challenge 
you, and pray for you that you will not lose site of the fact 
that who needs help. Political correctness and our checklist 
does not need help. Kids and families need help and I think 
that is why this whole faith-based thing has opened up because 
our society, our government programs, our nongovernment 
programs are looking for things that will work because it is 
clear that they are not and our society is quickly 
disintegrating while we debate these issues.
    I know they are difficult but I guess my challenge and my 
prayer is that you keep coming back to let us make sure, let us 
get down to the ground level and see where the rubber meets the 
road and needs are being met and where kids are being helped 
and where families are being helped and try to limit the 
bureaucracy in the process if we can.
    Mr. Terrell. Maybe I will be the last one. I don't know. 
Ask the clients if they care. They want to go to where they can 
get the help and they can be successful. Who is being 
successful? Make that the judgment. I had a judge in northern 
Indiana ask me, ``Are you a faith-based organization?'' I said, 
``Yes, I am,'' knowing there would be a consequence to that. He 
said, ``If the worse thing that happens is they become flaming 
Baptists, so be it.''
    I am not Baptist, by the way. It doesn't matter. His idea 
was how do we help those people. Again, we, at least I'll speak 
for Lifeline, we can help those people best by having people 
who have similar values and similar missions and that is what 
we would like to see happen.
    Mr. Souder. Let me ask one more question of Mr. Green. 
Would you spend the time and do the mission that you do which 
is helping people if you didn't believe that Jesus Christ was 
real and that was the only way? In other words, I am not asking 
whether you view it as a Christian mission but what motivates 
you to go do and give up what you have given up? Do you believe 
you would have done this if you weren't a Christian? People do.
    Mr. Green. People do. I would say because my atheist sister 
is our largest supporter of Emmaus. I think if I wasn't doing 
it, she would. I think when we encounter people like I did this 
work--I was going into business and different things but I did 
this because I encountered a person whose life I touched and 
they touched my life as well. I think it is in that 
transformation of life that we are transformed.
    Isaiah 58 talks about fasting and what is true fasting and 
all these different things, loosing the chains of injustice and 
breaking the yoke and welcoming the homeless into your home and 
feeding the hungry. Then right after that it says, ``If you do 
these things, your healing will quickly appear.''
    It says nothing about people no longer being hungry, no 
longer being thirsty. It says, ``If you do these things, your 
healing will quickly appear.'' In some ways I do what I do in a 
selfish way because I am transformed by doing this work and I 
am transformed by living out the Gospel as best I can. Would I 
do it if I didn't believe in the Gospel? I would like to think 
yes because of the values and morals that my parents taught me 
which I think contributes to why I do it.
    Mr. Souder. But part of this debate is some people do 
things for secular reasons. Some people do things for other 
faiths. But Christians many times do it because of their 
Christianity. What we are in effect saying is that unless you 
do it for reasons other than your faith, you can't get 
government funds. That is a legitimate debate.
    One other thing. Congressman Davis compared it to a doctor 
with technical skills. This is a little variation of the same 
question. You said you wouldn't hire someone who didn't share 
your faith. Do you believe that because the faith part of your 
ministry--in other words, if somebody stays a transvestite and 
would stay a prostitute--in other words if they will change, 
you would hire them. I mean, they would actually be possibly 
one of the most effective hires you could make. But if they 
haven't changed, that is part of what is being a good doctor is 
on your staff.
    Mr. Green. Absolutely. I mean, we get people--the men that 
I work with get just covered with stuff whether it is poverty 
or whether it is self-abuse or abusing others. I think there is 
a certain point where man-made intervention can work whether it 
is the 12 steps or whether it is counseling or whether it is 
therapy or whatever.
    There comes a point where your life has been devastated to 
such a degree that I think and I believe that the only thing 
that is going to solve that is a transformative encounter with 
the Holy Spirit through Jesus Christ. If you deny me the 
opportunity to provide that, you are going to deny them who are 
so wounded, who are so broken in life that is the only thing, I 
think, that is going to reach them and that is why I do what I 
do.
    Mr. Souder. Thank you.
    Do you have any questions?
    Mr. Davis. Yes. Just one thing. I was thinking of a 
scripture in Isaiah. I believe it is the Prophet Isaiah said, 
``If you would put an end to oppression, every gesture of 
contempt, build it on the old foundations, you will be known as 
the people who rebuilt the walls.''
    When I read that, it suggests to me that--it is kind of 
like the blues thing, ``Yesterday is dead and gone. Tomorrow is 
out of sight. It is so sad to be alone. I need somebody to help 
me make it through the night.'' It seems to me that we have 
reached another plateau in our being. I think of the Prophet 
Michael. You have to love mercy and walk humbly with your God.
    It just seems to me that the ultimate in this country is 
our notion that the majority rules. I am saying fundamental to 
our sense of democracy is majority rules. I am saying if we 
didn't have that concept, we would probably be like lots of 
other countries where coup d'etat and coups. Every time we 
disagreed somebody would grab their rifle or machine gun or a 
bomb or whatever it is that they use. But we have come to 
accept this notion of majority rules.
    If we can arrive at a majority opinion and then certify 
that into law as part of some legal requirement and operation, 
then it just seems to me that we, too, would be known as the 
people who rebuilt the walls. That is the common ground. I 
didn't feel like putting on a tie this morning.
    A lot of days I just as soon not wear a tie. I would love 
to just get up and put on my blue jeans and t-shirt and come on 
down here and do what I do. I could do it probably just as well 
with blue jeans and a t-shirt on as I can with a tie, but there 
is some expectations. Oh, my God, I have a press conference 
today so I can't go down to Fourth Presbyterian with my blue 
jeans and sneakers on because they expect something different.
    It seems to me that as we come together there is some level 
of societal expectation and compliance with what those 
expectations are as we seek to become more cohesive in our 
determination of who we are and what we are. Mr. Chairman, I 
thank you very much and I think this has been a great 
discussion. I really appreciate the position and views and 
programmatic responses of the members of this panel.
    Mr. Souder. Well, thank you. I want to say that your seeing 
and living legislative discussion and interaction here, the 
difference between what we agree has to function as a country 
which is democracy and a republic and the tension that puts on 
individual faith and how to reconcile that when you have 
increasing diversity of faiths in America because I love that 
passage in Micah. I have it posted.
    And I love the Isaiah passage but for many people of the 
Christian faith, they believe that the old testament is, in 
fact, a disproof. That without the death and resurrection of 
Christ and the transforming power of the Holy Spirit we are 
incapable of practicing compassion and mercy on a regular 
enough basis.
    Christ came down because of the failure of humanity to do 
that and that is really what is behind a lot of the missions. 
That is what we are really trying to figure out. What if a 
majority of the people don't agree with that and don't want 
their tax money to go to groups that do that. In a democracy we 
work that through.
    At the same time the practical matter of that is that 
groups that are effective in performing outcomes for those who 
are hurting are then withdrawn from that system and the people 
who are hurting are punished because of that debate. But it is 
unlikely that we are going to change the religious.
    I am a Christian but people of other religions are going to 
be equally passionate on theirs and how do we keep a democracy 
functioning and not have it break down to what we are seeing in 
other parts of the world where religious extremes then want to 
kill those who disagree. This isn't about killing each other. 
It is about how we work with the government funds.
    I'll let you have the last word. Do you have a comment, Mr. 
Green?
    Mr. Green. I would love to have a conversation with 
Congressman Davis because I don't see in scripture where the 
majority rules. I see that the road is narrow and I see that 
the way is rough. It was the one thief from the cross that was 
saved. I think it is not about the majority. It is not about 
the economic balances. It is about the economy of grace.
    I spent an exorbitant amount of time and effort reaching 
out to men who are considered expendable in our society. The 
John Wayne Gacy's and Jeffrey Dahmers all preyed upon male 
prostitutes because nobody cares about these guys. Yet, I think 
the economy of grace calls us to. It calls us to make economic 
decisions sometimes that in the world's sense seems foolish but 
I think in the Gospel sense seems wise.
    Mr. Souder. But as elected government officials we have to 
work within that democratic framework because you can't have 
one group saying, ``And we are the anointed and this is the way 
to do it.'' Even if they happen to be right that they are the 
anointed, in a democracy you have to work through it and that 
is our difficulty.
    If the third panel could come forward. Ms. Mary Nelson, 
president and CEO of Bethel New Life of Chicago, Mr. Richard 
Townsell, executive director of the Lawndale Christian 
Development Corporation of Chicago, Mr. Emmet Moore, 11th 
District Police Steering Committee in Chicago.
    Mr. Davis. Ms. Nelson is not here but Steaven McCullough.
    Mr. Souder. Steaven McCullough is representing Ms. Nelson.
    [Witnesses sworn.]
    Mr. Souder. Mr. McCullough, could you spell your name for 
the record so we have it? We didn't have it.
    Mr. McCullough. My first name is spelled S-T-E-A-V-E-N. 
Last name is spelled M-C-C-U-L-L-O-U-G-H.
    Mr. Souder. Thank you for your patience in waiting so long 
as we have gone through this. We thank you for participating in 
today's hearing. We will start with Mr. Moore. You are up on 
this side. Thank you for your testimony with the 11th District 
Police Steering Committee. Looking forward to hearing your 
testimony.

   STATEMENTS OF EMMET MOORE, 11TH DISTRICT POLICE STEERING 
 COMMITTEE IN CHICAGO; RICHARD TOWNSELL, EXECUTIVE DIRECTOR OF 
THE LAWNDALE CHRISTIAN DEVELOPMENT CORPORATION OF CHICAGO; AND 
 STEAVEN MCCULLOUGH, CHIEF OPERATING OFFICER, BETHEL NEW LIFE, 
                       INC., CHICAGO, IL

    Mr. Moore. Thank you, Mr. Chairman and Congressman Davis. 
Good morning to everybody here. My name is Emmett Moore. I am a 
community police volunteer for the last 8 years. I am also 
working with the police department and the city government and 
the district advisory committee. That is the committee that 
sits down with the police district commander, and we strategize 
as to how to fight the crime problem.
    I also chair a committee called Court Advocate 
Subcommittee. That puts me in court maybe three and sometimes 
four times a week, an average of about two times a week. I have 
been doing that for the past 8 years so I am close to this 
subject, and I see the faces behind the crime. I am also an 
advocate for victims of crime.
    I see this problem that people we are dealing with here 
today have brought violations before us and will bring us down 
if we don't change. One thing we have going for us that other 
Nations don't have, we have a written Constitution which is, in 
my opinion, is the best there ever was and the best there ever 
will be. The problem is are we living up to that Constitution? 
I don't think we are doing that but are capable of doing it.
    Now, the subject we are dealing with today, faith-based 
initiative, what little I know about it and from what I have 
heard here today I have a concern. My concern is, No. 1, that 
when we talk about the church and the church's role in our 
society, I think they do their best work when dealing with 
moral issues or moral fitness, dealing with character and 
things like that.
    That's their best work and the best thing they have done, 
and they have done a very good job at it until about four 
decades ago when we had so much going on and somehow we lost 
sight and moral standard decayed.
    Now, that happens because customs change. The one thing 
that never changes, and I think the church overlooked that, and 
that is character which deals with right and wrong. What we are 
dealing with today we have no right and no wrong. Everything 
goes. If we don't change that, I don't see how we are going to 
survive.
    I am here, and I am 78 years old. Sixty-one years ago, 
about 4 months before my 18th birthday, I volunteered: I had a 
choice of going to TWA or going into the military. I 
volunteered for the Navy, and I had 3 years and 2 months in the 
Navy.
    I survived that war which was cake compared to the war we 
are in now because we knew who the enemy was. We could 
strategize and plan and attack that enemy. But the world we are 
dealing with today is much more complicated and is much more 
difficult. It should really not be complicated because we 
should go according to the principles of our Constitution which 
is equality of opportunity. That is the thing to make us what 
we were. That is my wish that every individual regardless of 
what faith you are, we are all in this together.
    Every individual has a role to play. When we talk about 
equal opportunity, that means every individual for the benefit 
of society should be given the opportunity to progress to his 
fullest potential to be a contribution to society, not a drag 
on society. We are going, it seems to me, in the opposite 
direction.
    Another concern I have with faith-based is the limited 
resources we have. Even if they wanted to do good work, they 
don't have the money. We could use $100 million right here 
today in East Garfield and North Lawndale something like--what 
do you call the war plan? Whatever it is. You know what I am 
talking about. It would be a good investment here.
    The corporations, everybody is involved in this. The big 
corporations who right now are shipping jobs out of the 
country, they have to bring some of that money here. I have 
here a thing called the bell curve. I am trying to buildup that 
process with crime and I am trying to understand that. What 
they are saying if we don't keep the curve, the bell ringing, 
there is no end and you are going to lose.
    As we get this thing, the rich and the poor, all our power 
and all our strength to keep us going comes from that 68 
percent, and that is shrinking real fast--we better get a 
handle on it and turn it around. That is for everybody. I don't 
know how to do it. I am not that smart, but we ought to do it. 
Losing is not an option.
    I am not saying the government has to put out all the money 
here. The corporations have a responsibility to save this 
society. The corporations will have to come out here and invest 
in our community. In the beginning of the 21st century--I hope 
I get this right. I know some of you have read it before what 
Teddy Roosevelt said about the same thing that we are talking 
about.
    We are all in this together. Anything I have said I have 
read it somewhere. I am not that smart to think of this myself. 
What he said back 100 years ago, and I hope I get this right. 
You can look it up and make sure you understand what he said. 
He said that all of us are together with a long-time social 
benefit. Long-time social benefit for all of us is that 
everybody has an opportunity to be what he can be. If he falls 
on the way, pick him up if he wants to get up. Now, if he don't 
want to get up, that is his problem.
    Crime as we know it is out of sight. We have always had 
violent crime. We have a history of violent crime but about 40 
years it went downhill. It was noticeable. We didn't have to 
worry about what we worry about today. During the 1960's we saw 
it go up 500 percent. We have to find a way to deal with that 
problem. Thank you.
    Mr. Souder. Mr. Richard Townsell is the executive director 
of the Lawndale Christian Development Corp., a long-time 
activist. That organization has been a huge impact. I 
appreciate you coming to testify.
    Mr. Townsell. Thank you, Mr. Chairman and Congressman 
Davis. My name is Richard Townsell. I am the executive director 
of Lawndale Christian Development Corp. I also happen to be 
born and raised in this neighborhood. Our church has been in 
existence--this is our 25th anniversary as a matter of fact.
    Our church, 25 years ago was started by 13 young people. 
Those young people, high school students primarily, made no 
distinction between personal salvation and systemic salvation, 
systemic transformation so we are going to work both on the 
social gospel as well as preaching the Gospel. The church has, 
for those 25 years, been involved in after-school educational 
programs.
    Currently we have a program called Hope House where we 
house 50 men who either were in prison or on drugs for a large 
part of their life and help them get cleaned up and sober and 
rededicated back to their families and get jobs. And housing 
for homeless people and all sorts of things that churches do.
    We have a health clinic that sees about 80,000 patients a 
year. We have over 200 staff. Just down the street, as a matter 
of fact, they have a second site near here. We have been 
offered about $30 million worth of development in this 
neighborhood over the past 11 years that I have been executive 
director. Most of it has been housing related, economic 
development.
    We also run after-school programs for young people to deal 
with the digital divide and help them learn how to design Web 
sites. We have helped hundreds of young people go to college 
and graduate from college. I am honored and privileged to be 
here.
    As I think about the faith-based initiatives that the 
President is putting forth, I think they are wonderful, but I 
think there is one big problem and that big problem is there is 
no money with it.
    What they are dong now is opening up opportunities for 
others to participate on an equal footing, faith-based 
providers and others to participate on equal footing with 
nonfaith-based providers. The dilemma is, as the brother to my 
right said before, we need something in the realm of $100 
million just in this neighborhood.
    With the budget being what it is and deficits being what 
they are and taxes being slashed and all those wonderful 
things, to really make the faith-based initiative go, there is 
a scripture that says faith without works is dead. A lot of 
faith without money is dead, too. We need to be thinking 
carefully through.
    I have listened to the panel before and all of the 
objections and trying to figure out who gets it and who 
doesn't. It is easy to figure that out when the pie is a little 
bit bigger. It is not easy but it is easier. Our dilemma is 
faith or nonfaith with the kinds of things in our economy and 
what is happening in our Nation, one of the things that all of 
us say is a good job solves a lot of social problems.
    If we can create ways to help jobs get created in 
neighborhoods like this and others, I think many of the social 
problems that you see will go away. Now, they all won't go away 
from I do know that as it pertains to young people and 
families, you can only do what you see. If you see someone 
going to work every day you can aspire to that. If you don't, 
you don't.
    The dilemma for me with the faith-based initiative is not 
Constitutional questions and establishment clause and all those 
sorts of things but where is the money. If we can begin to 
impress upon the President that if he really wants to see this 
happen, if he really wants to see the faith community get 
behind it, then he has to put the appropriate amount of 
resources in it or else it is just happy talk. Thank you.
    Mr. Souder. Mr. Steaven McCollough is representing Bethel 
Newlife, Inc.
    Mr. McCollough Good morning. My name is Steaven McCollough 
and I am chief operating officer of Bethel Newlife, Inc. On 
behalf of Mary Nelson who could not be here today, I extend a 
welcome to all of you.
    Bethel Newlife is a 24-year-old faith-based organization, 
community-to-community development corporation that serves the 
West Garfield Park and communities of Chicago. Bethel Newlife 
evolved from Bethel Lutheran Church. In 1979 we started with 
$9,000 and two staff people to rehab a small apartment building 
in the community.
    Today Bethel has an annual operating budget of $12 million 
and a staff of over 300. Bethel has been faith-based since 
before it became a popular term. Our mission statement is from 
Isaiah 58:9-12 that Congressman Davis has mentioned.
    Bethel programs are in five mean areas in employment and 
economic development. Bethel sees close to 300 individuals in 
the community, many in our employment center, many of whom are 
ex-offenders returning to the community.
    Bethel operates two individual development account programs 
called Smart Savers and Sowing Seeds in which we have over 70 
graduates and 50 new IDA savings accounts. We also began 
construction in June for a new commercial center at Lake 
Implaskie with funds from the State of Illinois, Office of 
Community Service and EPA.
    Another area is services for seniors. Bethel operates four 
senior residential facilities, three of which are fully 
supported by HUD. The fourth is a combination of HUD and the 
State of Illinois Supported Living Program which is a first in 
the Chicago area. Other programs for seniors include adult day 
services, in-home services, and community-based residential 
facilities.
    In the area of housing and real estate development Bethel 
Newlife manages over 350 rental units of subsidized and 
affordable rental housing. We continue to develop over 60 
single-family affordable housing initiatives through programs 
such as the city of Chicago's New Homes for Chicago program and 
Illinois Housing Development Authority.
    We also provide supportive housing services in two 
locations for the homeless. One is for intact families and the 
other is for women with young children. Also in this area we 
have adaptive reuse which is culminating in the adaptive reuse 
of a closed-down intercity hospital that used to be St. Ann's 
Hospital in Thomas. It is a multi-use facility that houses 
seniors, childcare, and other activities.
    In the area of community building and cultural arts the 
core of Bethel Newlife is an organizing organization. We work 
with clubs, local school councils. We also operate a community 
technology center with over 20 computers and 15 laptops that 
are available for checkout to residents of the community.
    We support a balance prevention program in collaboration 
with Cease Fire which is a program that is operated out of the 
University of Illinois, Chicago. We do counseling, industrial 
retention, and providing space for cultural arts programs 
everything from plays to poetry readings and musicals.
    We also provide family support. We have a women and infant 
children program and Chicago Family Case Management program, as 
well as a program called Project Triumph which supports parents 
and young children's development. We operate a 80-child daycare 
facility and will open soon alternative hour childcare facility 
at Lake Implaskie.
    Our views on faith-based perspectives is this, and I am 
quoting from Mary directly, ``What it takes to operate a faith-
based organization is God, guts, and gasoline.'' You have to 
have God as your primary source and the faith in God and, the 
belief in individual assets and community assets, and the 
belief that everyone has an opportunity to change. Everyone has 
an opportunity and everyone has a right for economic 
opportunity and a right to prosper.
    We need to take on tough tasks. I think faith-based 
organization have that ability to take on those tasks whether 
it be working with ex-offenders, working with the homeless, or 
working with families that just need a leg up. I think the 
ability for faith-based organizations to have staying power 
contributes is the gasoline.
    Faith-based organizations have the gasoline to sustain over 
time with government funding. When foundation support is on the 
wain, it is the faith-based component that sustains this 
organization and other faith-based organizations to keep going 
and doing mission of the organization.
    Finally, in terms of government support, I think voting 
needs to be expanded for capacity building for smaller CDCs to 
assess need of funding from the government but the New Life is 
a 24-year-old organization. We do a lot of collaborations with 
the government at the city, State, and Federal level.
    But Bethel is not the end all or be all in the community 
nor in the faith-based community. Small organizations need that 
same capacity so in providing funding to get that capacity 
whether it be training, resources for various activities is 
desperately needed.
    The second thing is new allocation, new funding for 
programs not rearranging existing funding is needed for 
organizations that serve the community, especially faith-based 
organizations. Additional funding for housing subsidies for 
development and rental assistance as well as home buyer 
assistance is critical for us to maintain and keep a stable 
community.
    Those are some of the things that the government can do to 
help support faith-based organizations in the community. Thank 
you.
    Mr. Davis. Thank you, gentlemen, very much. Let me just say 
that we certainly appreciate your testimony.
    Mr. Townsell, I am obviously intrigued by the fact that a 
group of individuals just out of high school could decide to 
become urban pioneers, in a sense, and come to the North 
Lawndale community which has been called a cure for every 
problem and ill that exist in urban America. We look at it 
right now and we see that it is somewhat on the rebound.
    I can remember when there were 10,000 people who worked 
right in this spot where we are right now every day. There used 
to be 10,000 people who came right here to work every day. As 
corporations began to move out and move away and go to other 
places, that created a tremendous vacuum. How has your 
organization been able to develop and work successfully, 
especially given the fact that you are in practically what has 
been an all-Black community and your organization is not an 
all-Black organization?
    As a matter of fact, the people who started it there are 
probably very few Blacks in it I would imagine at the time. How 
have you been able to bridge that kind of gap and work 
effectively in a big urban center like the North Lawndale 
community and develop all of the things that you currently now 
have going?
    Mr. Townsell. I think first and foremost we have little 
bitty problems and a great big God. I think faith is at the 
center of everything that we have done. I think the other 
misperception, Congressman, is that organization was started 
mostly by Whites. Those 13 young people primarily are from this 
neighborhood. I was born at 1537 Avers so I have been around 
the church for 23 of its 25 years.
    While our pastor is White and while the guy who started our 
health clinic is White, most all the other people that started 
the church were African American and still live in this 
neighborhood so their hopes and dreams mixed with others who 
have resources and faith. Frankly, the answer is I don't really 
know how we did it other than by God's grace and by a lot of 
perseverance and reading through every single document and 
showing up at things and praying about them and praying over 
proposals and those sorts of things.
    I think for myself I have a burning passion because I am 
from here. I think a lot of the folks on our staff, most of the 
people on our staff are from the neighborhood where I am living 
now. They have a burning passion to see their neighborhood 
rebuilt because they remember a time, just as you suggested, 
Congressman, where we had 10,000 people working here and they 
want to return to that and they want to do it in a way that 
honors God.
    The long and the short is this is not unique to us. It is 
not even unique to some folks of faith but you have some folks 
who put their hand to the plow that decide they are sick and 
tired of being sick and tired and they are going to press on 
and do what they need to do in order to rebuild. Sometimes that 
is without money and sometimes that is with money.
    Mr. Davis. You obviously receive Federal dollars for the 
community health center and other programs.
    Mr. Townsell. Nothing from my development corporation and 
nothing from the church.
    Mr. Davis. But the community health center receives Federal 
support from the Bureau of Community Health?
    Mr. Townsell. Right.
    Mr. Davis. And do you find anything that prevents the 
church from carrying out its mission because of the receipt of 
these Federal dollars that you obviously comply with all of the 
guidelines, all of the rules and regulations to receive?
    Mr. Townsell. They are all separate 501(c)(3)'s so the 
church's mission is to preach the gospel and help homeless 
families and men. The development corporation has its own 
501(c)(3). Art Turner is the chairman of our board and he runs 
that operation. Then you have the health clinic who has its own 
separate board so they are all distinct, all born out of the 
church, but are born really to, as we started in our early 
days, begin to think about and pray about what did God want us 
to do.
    All these problems kept arising because we were from here. 
The only thing that we could do back then was to get a washer 
and dryer and start a laundromat in the church because we are a 
little small store front church and that is about the only 
thing we have the capacity to do. God continued to honor our 
faithfulness and today we look like we have a lot going on but 
there is still more challenges than we as one institution can 
deal with so we partner with and collaborate with other 
institutions around the city to do what we do.
    Mr. Davis. Steave, let me just ask you. Of course, Mayor 
Nelson is one of the four most actively involved persons in the 
country when it comes to community development. I often say 
that Mayor Nelson is the most creative community developer that 
I have ever known and I have known the mayor long before Bethel 
Newlife started.
    As a matter of fact, the Mayor and I served together at the 
old Christian Action Ministry where she was on the staff and I 
was a member of the board. Then after some problems existed 
there, Mary went out and organized through Bethel Lutheran 
Church.
    My point is that I have been interacting with Mary now in 
faith-based entities for more than 30 years. I have never heard 
them suggest that anybody had to become a Lutheran or that 
anybody had to be a Lutheran. Dave was the pastor of Bethel 
Lutheran Church, our brother, for a number of years until he 
finally retired and then ultimately passed away.
    My point is that I have been interacting with them for all 
this time and everybody knows that Bethel Newlife is faith 
constituted, faith-based, but I have never heard them suggest 
that anybody had to be Lutheran to work there or be Lutheran to 
participate or be Lutheran to receive any of the services or 
benefits.
    They still push not a heavy dose of religion but, you know, 
they like to talk about the blessings come down and different 
things like that. It is all kind of community spirited and 
community related. Is there anything that keeps you all from 
carrying out your faith tradition?
    Mr. McCollough. There is nothing that prevents us from 
carrying out our faith tradition.
    Mr. Davis. And you get a lot of money from Federal 
Government. The mayor will get money from anywhere that is 
money. I mean, if there is money, the mayor knows about it and 
she goes after it and has done an outstanding job with it.
    Mr. McCollough. Absolutely. The only requirement to work at 
Bethel Newlife is that if you believe in transformation, if you 
believe in helping individuals transform to improve their 
quality of life and their family, if you believe in 
transforming the community physically and building assets that 
belong to the community and for the residents of the community. 
That is the only requirement.
    We have a dynamic organization in terms of staff of all 
faiths. We have people of the Jewish faith, people of the 
Muslim faith. I myself am Baptist. I am not Lutheran and I am 
second in command so that is not a requirement. The only 
requirement is if you believe in individuals and in the 
community and wanting to put your best efforts toward that. We 
have the most talented staff. I would compare my staff to any 
for-profit organization, let alone non-profit or faith-based in 
the country. I think our staff by the length of tenure, as well 
as their abilities and education get the job done.
    Mr. Davis. They also obviously believe in hiring young 
people for responsible positions. Plus, what you described, if 
a person didn't express those values, let me just tell you, 
they couldn't work for me either. They couldn't work for me if 
they didn't convey to me in some way, shape, form, or fashion 
that they internalized the values that I hold dear as an 
elected official and if they didn't have an appreciation for 
what I tell the voters every 2 years when I go out and ask them 
to renew my contract, then not only don't I want them to work 
for me, I really don't want them anywhere around me other than 
for me to try to help them understand what they need to be 
about and what they need to be doing.
    I don't see any conflict in that but I would see some 
conflict if you said you have to be some particular religion or 
profess a certain kind of faith in order to work for Bethel 
Newlife or for a Lawndale Christian Reform entity.
    Thank you gentlemen. I don't have any other questions, Mr. 
Chairman.
    Mr. Souder. Thank you. Mr. Townsell, could you say the 
three things again?
    Mr. McCollough. McCollough.
    Mr. Souder. McCollough. Excuse me.
    Mr. McCollough. God, guts, and gasoline.
    Mr. Souder. You said that you don't require somebody to be 
a member of any particular faith but you said they had certain 
principles that you asked them to have.
    Mr. McCollough. Well, the principles are belief in 
transformation of individuals as well as the community believe 
that everyone has an opportunity to access both economically as 
well as access to services to support their family. Another 
belief is that not only transformation access but also 
opportunity to gain access to resources and to support 
themselves and their family.
    Mr. Souder. I wanted to clarify just for the record because 
that is not an atheist group. Is that true?
    Mr. McCollough. That is correct.
    Mr. Souder. Would you hire an atheist in your organization?
    Mr. McCollough. We would.
    Mr. Souder. If the majority of qualified people coming in 
the door were atheist, would you hire them?
    Mr. McCollough. If they can do the job and they believe in 
our principles, yes.
    Mr. Souder. Then you are not a faith-based organization.
    Mr. McCollough. We are a faith-based organization.
    Mr. Souder. You can't be. If the majority of your people 
could not believe in faith, you by definition----
    Mr. McCollough. It depends on what you define as faith. 
What we define as faith are the simple principles as in the 
Bible so----
    Mr. Souder. The same principles as in the Bible you 
couldn't be an atheist.
    Mr. McCollough. The principles are----
    Mr. Souder. For example, the Bible says the only way to 
heaven is to accept Jesus Christ as your personal savior.
    Mr. McCollough. That is in the Bible. If the person is an 
atheist and wants to work at Bethel, our principles allow for 
atheist to work there.
    Mr. Souder. You have a right and there are many nonprofit 
organizations that do that and in government you do that, but 
the difference, and this is what is really important, the 
definition of a faith-based organization, the question is what 
does faith mean. If it is a secular humanist faith in 
transformation, that is fine.
    Those organizations can get grants and do that. What this 
program was designed to do is say programs that are uniquely 
faith-based that believe whether it is in the Prophet Mohammed 
or in Buddha or whatever, if they are part of their faith that 
they would be eligible. But what you are saying is you don't 
have a faith-based criteria or a defined faith-based so you are 
technically not a faith-based organization.
    Mr. McCollough. I tend to disagree with that. I think our 
actions--I mean, our foundation is rooted in faith based out of 
Bethel Lutheran Church.
    Mr. Souder. I would agree with that. Would you agree with 
this? The U.S. actions are routed in Judeo-Christian traditions 
and that many nonprofit groups are organized off of the 
teachings of Christ and how to treat other people, compassion, 
and mercy and so on, but that wouldn't mean that while there 
are echoes and practices of that does not make them a faith-
based organization.
    Mr. McCollough. We are not the government. I mean, we are a 
community-based, faith-based organization that is grounded in 
the church as opposed to individuals. You asked about if an 
individual were an atheist would they work there. Yes, but we 
determine what is faith-based by our actions. What we do as an 
organization is for the church and the community.
    Mr. Souder. Mr. Townsell, do you have similar hiring, would 
you agree with that? In other words, a majority of your staff 
could be atheist?
    Mr. Townsell. No.
    Mr. Souder. Does the staff have to--I need to step back a 
step. Do all your staff have to be Christian?
    Mr. Townsell. Yes, but there is also some Christians that 
we wouldn't hire.
    Mr. Souder. Amen to that. What we are distinguishing, and 
this is really important and you said it very eloquently in the 
beginning, is that I would say, and each person has to define 
precisely what they mean by this and it is a lot in 
interpretation, but there is a difference between the faith and 
the works, but works are a manifestation of your faith and 
without faith works is dead but faith without works is dead 
also.
    Too often we don't see that. You said from the very 
beginning that Lawndale Christian Community has that mix. In 
other words, the goal isn't just to sit in a room and pray. It 
is to go out and help people. On the other hand, you understand 
that moral basis is the interactive of that.
    Mr. Townsell. The most personal transformation and societal 
transformation.
    Mr. Souder. And there are many organizations in America 
that started with a very explicit faith-based mission that 
evolved into the work side which is very important for the 
community. We have all kinds of nonprofit groups in America. We 
have all kinds of organizations. It is just there are 
differences in that some of these groups are further along in 
that transformation.
    My bet is that if I went to Bethel Newlife a majority of 
the people there are, in fact, Christian and, in fact, practice 
that and would reflect that. But the nature of your 
organization is defined such that could evolve because you 
don't have that now as a defining sense of the mission in the 
hiring.
    The mission could change. It may not because the 
individuals--people may not apply it to Bethel. The name Bethel 
actually has connotation and Newlife has a connotation. It 
could evolve because you don't have the firewall.
    The question in the government debate here is that your 
organization, Bethel Newlife, does not need faith-based 
legislation because you are already eligible for any government 
program. In other words, there may not be enough dollars but I 
don't think you would be excluded currently from anything that 
the Federal Government does.
    Mr. Townsell. That's correct.
    Mr. Souder. Whereas Lawndale has set up different division 
because they know if one division--is this correct? Some 
decisions, the health center, if they are going to get 
government funds which made them become more of a secular 
mission practice by Christians.
    Mr. Townsell. Correct.
    Mr. Souder. And then other missions that are overtly 
Christian don't necessarily get those government funds.
    Mr. Townsell. No funds.
    Mr. Souder. The question we are debating is should some of 
those missions that haven't been just the pure works side 
without the Christian faith side be included as a choice for an 
individual that they can do to. Where this becomes very clear 
is in drug treatment.
    For example, some drug treatment programs have faith 
components as a critical part of it. Others don't have it. They 
have the 12-step process or other processes. The question is 
should government dollars be able to go to a program where 
faith is an integral part of the program, or should they have 
to do it just on private sector.
    What if for some communities that to get the first step--
anybody agrees in drug and alcohol transformation the first 
step is commitment. What about if the faith part actually sets 
up the other and those in many cases are the most effective 
programs to long-term rehab. We in the government say they 
can't because they have faith as an active component in that 
and that is where the rubber hits the road.
    Bethel Newlife is already covered. Some of Lawndale 
Christian Community is already covered. The question is where 
on this continuum are we going to move? It isn't to say one 
program is better than the other necessarily. It isn't to say 
that individuals aren't.
    It isn't to say that, for example, a United Way in a small 
town which is clearly a secular program, that 100 percent of 
their employees in Lagrange, IN are probably Christian in my 
community, but United Way isn't. It isn't to say they don't 
practice Christian works. It isn't to say they aren't good 
Christians. It is just the organization they are part of.
    GM may, and probably does because it is in the United 
States, have a majority of Christians, but GM by nature isn't a 
Christian organization merely because the majority of people 
who are there are doing things that Christians would be 
expected to do, show up to work, perform well, and do that part 
of their career, too.
    Do you have a comment?
    Mr. McCollough. Well, I was just going to say that Bethel 
Newlife is not a church, we are not in the business of 
converting people to the Lutheran faith or any other faith. Our 
purpose is to serve. We leave the church's role to the church 
and leave Newlife Bethel separate from that. But what Bethel 
Newlife does as an organization is based on the faith and 
belief of the church.
    Mr. Souder. But, for example, Lutheran Social Services has 
not applied for government grants because they don't believe 
they are able to separate that cleanly their faith from their 
works. Lutheran Social Services and Lutheran Churches are 
divided in the United States as to how to do that.
    Mr. McCollough. There are different models. Yes, exactly. 
It is up to individual organizations to come up with their own 
model that works best for them, their church, and the 
community.
    Mr. Souder. And what we are wrestling with is those who 
choose the model where faith is interactive with their works 
and they don't see a separation, should they be excluded from 
the delivery of social services if tax payer dollars are 
involved? In the faith-based initiative there are really 
several prongs.
    One where we all agree in Washington, and I and others are 
discouraged that the dollars aren't more, is we ought to give 
tax credits including for those who don't take deductions that 
you can give to faith-based organizations. We have a sign-off 
on that between the different sides. Nobody is arguing the tax 
side.
    We also have a training fund side to help more religious-
based organizations set up 501(c)(3)'s so they don't get sued 
and we have negotiated that. What we haven't agreed on between 
the two sides is the eligibility of those who currently can't 
get government funds, and Newlife can, but that can't get 
government funds should they be allowed to without changing the 
nature of their organization that they have Constitutional 
protections.
    That is what has held up the money because the Compassion 
Capital Fund was supposed to be for those groups. Congress has 
not passed that legislation for the Compassion Capital Fund. 
What we have done, which I still believe is good, is allowed 
those groups through the executive branch--Congress has not but 
the executive branch in some of our pending legislation that 
would be allowed faith-based organizations defined as those who 
can't separate the two to be eligible to bid.
    I believe this will still lead to the leveraging dollars 
and efficiency of staff volunteering but that is where the 
debate is. The additional dollars beyond regular will come if 
we can resolve whether these groups are, in fact, eligible.
    One thing I also wanted to get on the record is I believe 
Lawndale Christian Corp., are you affiliated with the John 
Perkins national organization?
    Mr. Townsell. Correct.
    Mr. Souder. Could you explain a little bit because I want 
to make sure we get into our record of hearing that we have 
been doing things about prisons, about schools, about 
juveniles, about male prostitutes, about childcare centers, but 
we haven't really had anybody thus far in our hearings who has 
talked about the importance of community development and how 
that would be involved in the Christian mission and what you 
have done there relating to how does a church say this is what 
we need to do to get jobs for people. This is what we need to 
do to train people. We have some on job training but what is 
the philosophy behind Christian community development in your 
corporation?
    Mr. Townsell. The CCDA, Christian Community Development 
Association, was started about 15 years ago by John Perkins, a 
gentleman from Mississippi, an African American, who was almost 
killed in the 1960's registering people to vote.
    During that time he was in prison after the sheriffs had 
beat him and stuck a fork up his nose and tried to kill him. 
God told his heart that he was supposed to love people who are 
of lighter hue. He was supposed to love White folks. He did do 
that. John has been sort of the Moses of the Christian 
Community Development movement and has helped us and groups all 
around the country. Basically he taught us all that he knew 
about community development and other groups all around the 
Nation.
    Where we have had a lot of success is trying to figure out 
how to do affordable housing and job training and those things 
in addition to after-school programs and Bible clubs and all 
those things. One of the three tenants of Christian Community 
Development is relocation meaning that folks who have graduated 
from college who grew up in neighborhoods should relocate and 
live back in those neighborhoods instead of escaping to the 
suburban utopia.
    That was a challenge for me and for my brothers and others 
who grew up in this neighborhood then left and came back but he 
believes that folks of God should be OK in coming back to 
communities.
    The second is reconciliation. We should be reconciled. The 
cross is really the ultimate symbol of reconciliation, man to 
man and man to God so we should reconcile across race and class 
and gender and those things.
    Finally, redistribution which is really about economic 
development. How do you do community development well and how 
do you get the local economy to rebuild and how do you support 
local banks and how do you support local insurance companies. 
We use African American architects and surveying companies and, 
to the extent we can, construction companies, African American 
and Latino.
    So that has been part of our mission is redistribution and 
how the dollars begin to circulate back in the neighborhood. 
John has really taught us how to do that. That is a critically 
important component. The difficulty is particularly in housing. 
It is a very complicated issue and there is not a lot of 
Federal support to be doing housing.
    HUD is moving more into the home ownership branch which is 
important. We do home ownership counseling and we sell homes. 
Also for supportive housing and those sorts of things. Our city 
budget is overwhelmed by the number of requests. Our State 
budget is overwhelmed by the number of requests of people who 
want to deliver affordable housing and can't.
    Also, what is affordable. I mean, how do you define 
affordable. Is it 60 percent of the median in the city which 
the median is $75,000 so you are helping people that make 
$42,000 a year, or is it much lower? Trying to give HUD--you 
know, again this is a question of resources. How do you get HUD 
to pay attention and create a Federal housing policy I think 
would be instrumental in neighborhoods being rebuilt.
    Mr. Souder. Let me ask, if I may, just a couple of followup 
particular questions with that. How do you--because I think it 
is tremendously admirable about coming back and resettling in 
the neighborhoods.
    How do you--we are dealing with this in Fort Wayne, how to 
get a balance and where the balance tips toward either middle 
class identification in the lower class, lower-income people 
who may not have a job and then move out and are unwelcome. How 
do we address that question? Do you have suggestions on how we 
get blended communities and maintain it without tipping one 
direction or the other?
    Mr. Townsell. I mean, it is a difficult question because 
who really governs the market? Some people would say that you 
should have affordable housing set aside. That we should be in 
developments like there are hundreds of units being developed 
and there should be a certain percentage that is set aside for 
people with certain incomes so they don't get moved out of the 
neighborhood.
    I think you need the market to come back so that you have 
goods and services so that people don't have to drive to Opark 
to get stuff. At the same time we don't want that to be the 
wheel that drives people out of neighborhoods so you have to be 
constantly thinking. That is why I think the role of the church 
is important because we have all kinds of folks in our 
congregation.
    We just don't have rich folks. We have poor folks, 
unemployed folks. The church being at the center of that and 
being accountable to that base of folks because 85 percent of 
our members live in the neighborhood. We have to be sure that 
we aren't doing something that is going to move Mr. Jones or 
Mr. Smith out of the neighborhood.
    It is a very complicated question. I don't know how you get 
around it without somehow there being land policies with land 
trusts or something like that to make sure this stays 
affordable for 40, 50, or 100 years. I don't have enough time 
right now to talk about it. I have ideas about it.
    Mr. Souder. Before I go to Mr. McCollough, I am going to 
ask a second question here and then I would like you to address 
both of them, too. I have been a supporter of Congressman 
Davis' effort of what we do with the people who are returning 
offenders who are some of the hardest to house and find 
housing.
    As we have locked up people at increasing rates, often in 
poor communities of which we see just as the Chicago Tribune 
and New York Times and USA Today is reporting today crime has 
gone down. Partly crime has gone down because we have locked so 
many people up. Now they are going to be coming back out. How 
do we not have the cycle start over again?
    Do you see that as a pressing problem because many times as 
you bring back middle class people, they are concerned about 
obviously crime in the neighborhood and who their neighbors are 
going to be. Do you have any suggestions to us other than 
support Congressman Davis' bill which gives funding toward it.
    Mr. Townsell. I would say yes and amen to that. There are 
other things that need to happen in addition to that. I think 
not just middle class people are concerned about crime. All 
people are concerned about crime. Poor people are concerned 
about crime as well. I think the way Jolice Wilson talks about 
it is----
    Mr. Souder. But lower income people have less ability to 
escape it. They don't have to come back to it.
    Mr. Townsell. Sometimes less ability to organize it and 
hold accountable the police to be able to protect and serve in 
the same way they do in other neighborhoods. I think the issue 
is that we need to be anticipating men coming back and building 
job training centers in places like Lawndale. I think Washburn 
was many years ago to help people learn how to be brick masons 
and plumbers.
    I went to Dunbar High School which is a vocational school. 
In my school you could repair helicopters. You could do 
masonry. You can do carpentry. You can do all those sorts of 
things and you can go from there to an apprenticeship into the 
union and get a great paying job. Well, Washburn is gone and 
there are not many things like it.
    Westside Tech is revived. They are doing landscaping and 
horticulture and some of those other things. There is not a 
place to help men and women learn how to do a trade. Most of 
their training programs are in the suburbs so they are not 
accessible to folks in the city.
    If there is one thing that Congress could do to help would 
be to build a world class training facility like Bill 
Strictland has in Manchester, in Pittsburgh, and North Lawndale 
not too far from here accessible to public transportation to 
help people who are returning from prison to move into a trade 
and learn carpentry and electrical and then move into the union 
and have a well-paying job. I think that is a critical thing 
and that is something that I hope you two gentlemen will fight 
for.
    Mr. Souder. Mr. McCollough.
    Mr. McCollough. You talked about displacement 
identification. I think in ways you support the current 
residents with low-income versus middle and upper-income 
residents moving in the community. I think one way of hoping to 
support lower-income residents is continuing to provide rental 
subsidies and continue to provide funds for low-income rental 
and affordable home ownership.
    Those are the two key things. There is such a lack of 
affordable housing in Chicago and across the Nation. What that 
does is forces many families outside of the community that they 
were born and raised in. I grew up here as well. I was born in 
Troublin, OH and lived here in the community for 27 years so I 
know what this community is about. People need to have a stake 
in it. I think home ownership as well as rental.
    In the community itself through the 1960's and the 1970's 
there were so many units of rental housing that have been 
destroyed that is being replaced by $50,000, $100,000, $300,000 
townhomes. A lot of folks can't afford that. We need subsidies 
to make those affordable. That is what the government can do.
    You also talked about ex-offenders. The reason people don't 
move into neighborhoods are, two things, schools and crime. 
This needs to be put on both of those. All five of our area 
public health schools are on academic probation. A number of 
our elementary schools--most of our elementary schools are on 
academic probation. There needs to be additional resources and 
training for teachers. I think that leads into the No Child 
Left Behind Program but there needs to be funding behind that 
to support that.
    As far as ex-offenders that is the primary issue in our 
community today. It is not just jobs. It is also housing. It is 
also education. It is also economic opportunity. It is also 
about the family. It is a family issue. Ex-offender who are 
back in our community affects children, affects the ex-offender 
themselves and their family. All of those things I mentioned 
will help support that work. We are in full support of 
Congressman Davis' bill.
    Mr. Souder. Mr. Moore, maybe as kind of the elder here you 
probably have about as many years as these guys combined. Could 
you give some of your comments on what you see the challenges 
are with some of the ex-offenders and how the community would 
respond. Also what our committee predominately focuses on, 
narcotics.
    We also do faith-based and other agencies like HUD. That is 
why I was also asking housing questions. What do you think are 
the most effective things we are currently doing in drug and 
alcohol and where we should target that, the most effective 
areas that you see having your experience as a police captain.
    Mr. Moore. I deal with drug traffic and gangs. In answer to 
your question, that is a tough question because what I see in 
the courts, especially drug traffickers, drug users, but for 
drug traffickers in most cases people testify in court that 
drugs make them second class.
    Just to give you an example of where I am coming from here, 
we have a drug conspiracy case where the people range in age 
from 18 to 45. We had a 45-year-old grandfather who testified 
in court, ``That is the only way I am going to put food on my 
table. I have grandkids. I have a family. I volunteer. I am an 
ex-offender. I can't get a job. You are forcing me to sell 
drugs to feed my family.''
    That is real. That is the real question we are going to 
have to deal with. He was sentenced to 8 years on top of what 
he has already been in. Now, he is going to be OK but his 
grandkids and his other family members out there who have no 
income, most likely those people are going to fall through 
because nobody cares.
    To get back to I quoted President Teddy Roosevelt that 
people stumble. We are not perfect. I am a court advocate and I 
deal specifically with victims. There are some people who have 
committed crimes who should not be able to walk amongst. That 
is why I have a problem with these ex-offenders because that 
includes everybody who has committed a crime.
    We have to deal with people who have done their time, what 
the States say you shall do, and they come out and, yet, we 
reduce them to second class and we force them to go back into 
crime and every time they go back they commit a crime. Not in 
every case but in most cases they commit a crime which is a 
little more severe than the one they was in there for in the 
first place.
    When you factor in the cost of incarceration, it seems to 
me that it is just plain common sense that it would be better 
if we could find a way for those people who have done their 
time and not reduce them to second class status and force them 
back into that crime but to try to pull them back into the 
mainstream which is what we talked about with this bell curve 
here.
    We have to bring the mainstream back because as this side 
grows which is the rich, and this side grows which is the poor, 
we ain't going to have no middle class. That is the only thing 
that keep us going is the middle class. I am not only talking 
about money because I don't always equate class with money 
because you can get rich, you know. Most people do get rich 
without dishonesty. We are going to find a way, I think.
    Here is a question I have for the people who provide this 
service. We are volunteers, mostly seniors, and we deal with 
young people. We have a kids program. We try to have character 
building programs. Now, I have been dealing with seven young 
men who are exploring a gang. They are associated. They are not 
gang members but as the Supreme Court said--I don't like to use 
that word gang because they said a gang member is not a crime. 
That is a status. Criminal conduct is what we should be dealing 
with.
    I want to ask these providers of this service, I know their 
resources are limited. These young people, I have two young men 
that want jobs. They don't want food here today or something. 
They want jobs where they can earn a living and make a 
contribution to society. They don't want no handout. They don't 
want to be second class. They want the opportunity to work and 
find a job.
    I can't tell them where to go. We can't tell them where to 
go. We can't tell them to go to this place or this group. They 
don't have the jobs to give them. What do we do with them? Now 
they've got to go out. We are forcing that 19-year-old who 
wants to go straight. We get our democracy from each other.
    We talk about it all we want to but really democracy comes 
from how we relate to each other. That is real democracy. I 
don't care what we say. We don't have it until we live in peace 
without fear and we relate to each other on the principle that 
we are all going to treat each other right. That is democracy.
    I think people with the money, you can keep it if you want 
to but you can't buy a hamburger on Madison Street. These 
people over here, this group is growing. Sooner or later they 
are going to pull you down. You can't spend it. You got to 
spend everything on security. You can't enjoy life.
    Money is good but they got the money and they are going to 
keep it. That is human nature. ``I am not pulling out. I am 
going to keep it.'' They put all the jobs out to maximize the 
money they are going to bring in. They don't care about this 
group over here. I am here to tell you you better start 
thinking about them. You better start thinking about them 
because crime as we see it coming is going global.
    This is something out here that is real. Crime is a way of 
life. It is a way of feeding the family. It is a way of 
survival. Internationally drug traffickers with an endless 
supply of money wants to come in and organize street gangs into 
their network, which they are already trying to do. Crime is 
going global now. Every ethnic group in this world is involved 
in some kind of way in this drug trafficking thing. Now, if 
they want to do that, we are lost because drug trafficking and 
the crime and the destruction that goes along with it.
    Somebody said about 30 years ago, one of the drug lords out 
of Colombia when he was arrested, he said, ``I found a way to 
get rich and destroy the United States.'' What I am trying to 
say the international drug traffickers and the international 
terrorists have the same agenda. If they ever hook up with the 
endless supply of money up here, we are in major, major 
trouble. It is on its way now. Drugs is everywhere. It started 
right here within a half a mile of here 45 or 50 years ago and 
spread nationwide. Now it is spreading worldwide. I think the 
people who make decisions and the people who control the money 
should think about the Nation first. Everybody in it is part of 
it and you can't force people into a life of crime and then 
expect them to play according to the rules. It just doesn't 
work.
    Mr. Souder. Thank you.
    Mr. Davis. Let me just agree with Mr. Townsell in terms of 
the need for vocational training and technical training. That 
is something that needs to be pushed much harder. In addition 
to the government, though, we also need the unions because the 
unions have been deterrents to individuals coming in as 
apprentices and moving up. There have been grandfather clauses 
and all kind of other things. If your granddaddy was a union 
member, you could get in or if your daddy was a union member. 
But if nobody in your family or nobody vouched for you or 
whatever, then you couldn't get in. That has been a real 
deterrent and that is something that needs to change.
    The other point is that the whole business of rights in a 
democracy. That is something that we can't get around. The 
reality is that my rights end where the next person's rights 
begin. We always are trying to protect and that is one of the 
things, too, that has made us great. We can talk about atheist 
but I don't know any. I was just trying to think as the 
discussion went.
    I don't know a single person that I could describe as being 
atheist. There may be some people who know them but I don't 
know one. Not a single individual do I know who would fit my 
definition of an atheist. So there are some things that we talk 
about and there are other things that are real. My mother used 
to always tell us that what you do speaks so loudly until I 
can't hear what you say. What you say really just don't mean a 
lot but what you do means a great deal. When I think of Bethel 
Newlife, for example, as an entity, obviously what you do 
speaks to what you are. I don't think there is any way to deny 
that.
    The testimony that we have heard and, Mr. Chairman, I would 
like to just indicate for the record a gentlemen left a little 
note who said that, ``Faith-based organizations can keep doing 
it the way they want to but it is not Constitutional to use my 
tax dollars to promote your religious beliefs. Find other 
sources of funds. Federal funds are not the only source.''
    Then he ends by saying, ``Don't use my taxes for 
discrimination.'' He is saying you do whatever you want to do 
with your money. You can do whatever you want to do with your 
resource but don't use his money. Well, you know, if there was 
a grant for $1 million, chances are a few pennies of his money 
might get mixed in there. I don't know how you get his money 
out.
    He has got a right to his opinion. The thing that I have 
had to learn most in this business is that individuals have 
rights even when they have the right to be wrong. There are a 
lot of opinions that are basically that, and that is opinions. 
You have a right to those but we also have a responsibility and 
the chairman knows that well.
    That is why all of this is so relevant and so important. We 
have a responsibility to shift through those opinions. We have 
a responsibility to hear those opinions but then when the 
rubber hits the road, we have to make a determination. We have 
to make a decision. Lobbyist come to see me all the time.
    I listen to them and I say, ``You know, I agree with what 
you say but there was a guy that just went out the building who 
said a whole lot of stuff that was different than what you said 
and I agree with a lot of what he said also.''
    It makes me feel kind of like the young fellow who had two 
girlfriends and wanted to get married. He couldn't figure out 
what to do. He eventually wrote himself a poem and he said, 
``I've got a love for Angeline but I love Caroline, too. I 
can't marry both of them so what am I going to do? My God, 
Angeline can cook and how Caroline can sew. They are both super 
intelligent and, Lord, I just don't know which way to go.''
    Of course, he never got married. When issues come up for 
both, no matter what we are thinking and no matter how much 
good stuff we have heard on both sides, when the chairman puts 
the question, you have to be aye or nay. I mean, you can slip 
out and not be present. You can do that but you can't vote 
present. I mean, you can be aye or nay. That is why we go 
through hours and hours of listening.
    There are a lot of folks who don't understand these 
hearings but that is the democratic way. That is to give every 
person his or her opportunity to be heard. Now, if there are 
some people who don't understand it and don't take it, then the 
only thing that we can do is try and help them understand it. 
But at the end of the day we have to do like my pastor when he 
opens the doors of the church.
    I mean, he'll open the doors of the church and if nobody 
joins, then he often would say, ``If Israel never repents, we 
are discharged of our duty. If Israel never repents, Jacob 
won't lose his reward.'' What he is really saying, ``I have 
done the best I can do and didn't nobody bite.'' The apple has 
been put out there but if nobody came in and took a bite, Lord, 
remember I've done my best.
    That is what we have to do as we listen to all of you is 
simply say like Abraham Lincoln said, and that is when it comes 
to the issues of public policy Lincoln said, ``I just do the 
best that I can and if at the end it comes out all right, 
people will swear what a great guy I was. If the end comes out 
all wrong, then a legion of angels swearing that I was correct 
won't make a bit of difference.'' We thank you for your 
testimony. We thank you for sharing with us.
    I must confess, Mr. Moore, with all due respect to you, it 
is really refreshing to me to see two young men who grew up in 
this community as things were changing and transitions were 
being made who themselves have made a commitment to come back 
and serve and make use of their talents and skills and become 
part of the leadership to help rebuild those walls that have 
crumbled. I thank all of you and thank everybody for coming.
    Mr. Souder. I want to thank Congressman Davis for again 
hosting us here. It is tremendously helpful and such a 
different atmosphere than we get in Washington. Our discussions 
tend to be a lot more open with people willing to say 
controversial things and argue with each other than in 
Washington where it tends to get very intimidating and you kind 
of get this cold, dry debate not in context to where people 
actually live.
    It is really helpful to do this. We will continue to have 
these. The fundamental debate item has come up in every hearing 
and we have heard lots of different types of people debate 
that. But we have also heard what many diverse variations of 
faith-based groups are doing in their communities and the 
fundamental question we have to decide in Congress by 
democratic vote at some point and the court's rule and the 
interpretation of the Constitution is are clearly no one can 
discriminate with tax dollars as to who they serve.
    All these different groups that we have met with in all 
three hearings and we will see in the future are trying to 
serve at-risk people. The question is can diverse faith groups 
participate in that system without changing who they are.
    Many organizations in the United States choose to do that 
and currently are participating but we have a large segment 
whether they be evangelical or very conservative Catholic or 
Orthodox Jewish or conservative Lutheran or Buddhist or Muslim 
or Hindu that do not choose to participate. Those people are 
varied about and a lot of their support for government services 
has backed up because they believe that a lot of these 
solutions require faith in solving these problems and they are 
not going to support.
    In Indiana where we have a Democratic Governor or Illinois 
where we have a Republican Governor, the amount of dollars 
going to social services is not going up. The number of kids 
and adults per probation officer is increasing all the time in 
every State regardless of party because the middle and upper 
classes will not support and have not supported increases as 
the needs are going.
    They will say the problems are getting greater but the will 
to fund the taxes aren't there. The question is can we 
supplement this and can we get more support if we have blended 
types of funding. But those groups will not tolerate watering 
down their faith. They may even be a minority of the country 
but if they withdraw from that participation, it has 
consequences for the public funding side as well.
    This is a huge dilemma and one that has become partisan 
which is unfortunate and we need to have these kind of 
discussions so we all understand. The Republicans need to 
understand the magic of faith-based does not solve the resource 
problem. There are dollars.
    What we are arguing for some on the other side is to say, 
``You need to understand that there are many people of multiple 
faiths who believe this just isn't a funding problem. It is a 
morals and ethics problem and just pouring more resources 
without having that as a component we view as a waste of our 
money.'' This is a really tough dilemma as we work through 
these expenditures.
    I appreciate those of you from Chicago. Those of you who 
have been in the audience if you have additional things you 
want to submit, we'll do this. This is likely to be because we 
have had really good hearings likely to be the Congressional 
debate record that will be behind the report that will come out 
at the end of the 2-years summarizing a lot of this of the 
faith-based issue because you can't have a better discussion 
and debate with people who have really spent their time down in 
the trenches helping people than we have had today.
    First and foremost, those on the panel, those in the 
community, the first thing is thank you as public elected 
representatives, as Congressman Davis has said, for what you do 
because you are actually helping real people. We are trying to 
figure out how to make it easier for you to do that, how we can 
supplement it, but you have sacrificed your lives to do it and 
we really appreciate that very much.
    Mr. Davis. Mr. Chairman, two testimonies I want to make 
sure that we--the testimony that I read from the gentleman that 
left, his name is Sam Ackerman so I want to make sure that 
Sam's name is reflected in the record.
    Also I have testimony from Mr. Otis Wright who is the 
director of intergovernmental affairs for the Chicago Housing 
Authority. I would like to make sure that their testimony is 
reflected in the record.
    Mr. Souder. Both of those testimonies will be entered. If 
you have additional, submit those.
    With that, subcommittee hearing stands adjourned.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned.]
    Mr. Souder. I'm going to reconvene briefly. I have been 
stating multiple times--the current Governor of Illinois, Rod 
Blagojevich, is actually a close friend of mine. We have 
traveled around the world. He is a relatively new Governor. 
This State had Republican Governors who made most of the 
legislation about what we are debating. But Rod would not like 
being called a Republican.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
